No. 20-1744
In the Supreme Court of the United
__________________

States

GOOGLE, INC., ALPHABET, INC., AND
ADECCO USA, INC.,
Petitioners,
v.
JOHN DOE, DAVID GUDEMAN, AND PAOLA CORREA,
Respondents.
__________________
On Petition for Writ of Certiorari to the
Court of Appeal of California,
First Appellate District

__________________

BRIEF IN OPPOSITION
__________________
JAHAN SAGAFI
OUTTEN & GOLDEN LLP
1 California St., Ste 1250
San Francisco, CA 94104
jsagafi@outtengolden.com
(415) 638-8808
MICHAEL SCIMONE
JULIO SHARP-WASSERMAN
OUTTEN & GOLDEN LLP
685 3rd Ave, 25th Floor
New York, NY 10017
msccimone@outtengolden.com
jsharp-wasserman@
outtengolden.com
(212) 245-1000
September 8, 2021

CHRIS BAKER
Counsel of Record
DEBORAH SCHWARTZ
BAKER CURTIS & SCHWARTZ, P.C.
1 California St, Ste 1250
San Francisco, CA 94104
cbaker@bakerlp.com
(415) 433-1064

Counsel for Respondents

i
QUESTIONS PRESENTED
1. Can or should this Court, consistent with 28 U.S.C.
§ 1257, review an interlocutory decree by a state appellate court that reversed trial court decisions sustaining demurrers to complaints on federal preemption grounds?
2. According to Petitioners: “Where plaintiff has
sought and obtained relief under the National Labor
Relations Act, does the Act preempt plaintiff’s statelaw claims for the same conduct?”

ii
PARTIES TO THE PROCEEDING
Petitioners Google and Alphabet (usually termed
“Google” here) are technology firms. Petitioner Adecco
is a staffing firm that provides temporary employees
to employers throughout California, including Google.
Petitioners are defendants in the trial court.
Respondent John Doe is a high-level Google supervisor. (Respondents’ Appendix (“App.”) 6-8). Respondent Paola Correa was a sales representative employed by both Google and Adecco who was fired by
both companies because, among other things, she disclosed what Petitioners termed “confidential information” to third parties. (App. 9-11). Respondent David Gudeman was fired because, according to Google,
he was unable to meet expectations. (App. 8-9). All
three Respondents – a supervisor and two former employees -- are outside the jurisdiction of the National
Labor Relations Act. (App. 8-11). Respondents are the
plaintiffs in the trial court.
Through California’s Private Attorney Generals
Act (PAGA), Cal. Labor Code § 2698 et seq., Respondents bring claims on behalf of the State of California.
Respondent Correa also brings claims, as an individual, against Adecco pursuant to California’s unfair
competition law.

iii
RULE 14.1(B)(III) STATEMENT
In addition to the proceedings listed in the petition,
the following proceedings are directly related to this
case.
John Doe, David Gudeman, and Paola Correa v.
Google Inc., Alphabet Inc., and Adecco USA, Inc., No.
CGC-16-556034 (Cal. Superior Ct.) (trial court proceedings following January 21, 2021 remittitur from
the Court of Appeal; pending).
Adecco USA, Inc. v. Superior Court of San Francisco,
No. A153470 (Cal. Ct. App.) (order denying Adecco’s
writ of mandate seeking coordination of Doe v. Google
with Moniz v. Adecco, a related case; entered on February 6, 2018).
Adecco Confidentiality Agreement Cases, Case No.
4939 (per assignment from Cal. Judicial Council) (order denying coordination of Doe v. Google and Adecco
v. Moniz, filed on January 4, 2018).

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED......................................... i
PARTIES TO THE PROCEEDING ............................ ii
RULE 14.1(b)(iii) STATEMENT ................................iii
TABLE OF AUTHORITIES ....................................... vi
STATEMENT OF JURISDICTION ............................ 1
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED .............. 1
INTRODUCTION ........................................................ 2
STATEMENT OF THE CASE .................................... 5
REASONS FOR DENYING THE WRIT .................. 15
I.
THIS COURT NEITHER CAN NOR SHOULD
ASSERT JURISDICTION TO REVIEW THE
APPELLATE COURT’S INTERLOCUTORY
DECISION ...................................................... 15
II.
THE PETITION’S QUESTION PRESENTED
MISREPRESENTS THE PROCEEDINGS
BELOW ........................................................... 18
III. THE QUESTION PRESENTED HAS BEEN
LONG RESOLVED ......................................... 19
A.
Under Garmon’s Local Interest
Exception, States Can and Do
Regulate Conduct Arguably and
Actually Prohibited by the Act ............ 19
B.
NLRB Proceedings Are Not Dispositive
of the State’s Right to Regulate
Conduct That Separately Violates
State Law ............................................. 21
C.
Gould Did Not Silently Eliminate
Garmon’s Exceptions ........................... 23

v
IV.

APPLICATION OF THE GARMON GUIDELINES IS CASE-SPECIFIC ........................... 24
A.
There is No Conflict Between This
Case and Any Other Case .................... 24
B.
Petitioners’ Disagreement With The
Application of the Garmon Guidelines
Does Not Justify Supreme Court
Review .................................................. 28
V.
SUMMARY REVERSAL IS INAPPROPRIATE.... 31
APPENDIX
Appendix 1
Fifth Amended Complaint in the
Superior Court of California
County of San Francisco
(November 21, 2017) ............... App. 1
Appendix 2
Constitutional, Statutory, and
Regulatory Provisions
Involved .................................. App. 72

vi
TABLE OF AUTHORITIES
Cases
Allied Chemical and Alkali Workers of America
v. Pittsburgh Plate Glass Co.,
404 U.S. 157 (1971) ............................................. 18
Belknap v. Hale,
463 U.S. 491 (1983) ......................11, 17, 21, 22, 26
Chaulk Services, Inc. v. Massachusetts
Commission Against Discrimination,
70 F.3d 1361 (1st Cir. 1995).......................... 25, 26
Cox Broadcasting Corp v. Cohn,
420 U.S. 469 (1975) ............................................. 15
Epic Systems Corp. v. Lewis,
138 S.Ct. 1612 (2018) .................................... 12, 28
Farmer v. Carpenters,
430 U.S. 290 (1977) ....................................... 21, 25
Fort Halifax Packing Co. v. Coyne,
482 U.S. 1 (1987) ................................................. 12
Garner v. Teamsters,
346 U.S. 485 (1953) ............................................ 24
Huffman v. Pursue, Ltd.,
420 U.S. 592 (1975) ............................................. 25
International Longshoremen’s Ass’n, AFL-CIO v.
Davis, 476 U.S. 380 (1986).............................. 4, 16
Jefferson v. City of Tarrant,
522 U.S. 75 (1997) ......................................... 15, 16

vii
Linn v. United Plant Guard Workers,
383 U.S. 53 (1966) ........................................ passim
Local 926, Intern. Union of Operating Engineers
v. Jones, 460 U.S. 669 (1983) ........................ 11, 24
Local No. 438 Const. and General Laborers
Union v. Curry, 371 U.S. 542 (1963) .................. 17
Malwarebytes, Inc. v. Enigma Software Group
U.S.A. LLC, 141 S.Ct. 13 (2020) ......................... 32
Mansfield, C. v. L.M. Ry Co. v. Swan,
111 U.S. 379 (1884) ............................................. 17
Merrill Dow Pharmaceuticals v. Thompson,
478 U.S. 804 (1986) ............................................. 16
Motor Coach Employees v. Lockridge,
403 U.S. 274 (1971) ....................................... 23, 24
Nash v. Florida Indus. Commission,
389 U.S. 235 (1967) ............................21, 22, 26, 31
NLRB v. Yeshiva University Faculty Ass’n,
444 U.S. 672 (1980) ............................................. 18
North Dakota State Bd. v. Snyder’s Drug Stores,
Inc., 414 U.S. 156 (1973) ..................................... 16
Parker v. Connors Steel Co.,
855 F.2d 1510 (11th Cir. 1988) ..................... 25, 26
Platt v. Jack Cooper Transport, Co., Inc.,
959 F.2d 91 (8th Cir. 1992) ........................... 25, 26
Pope v. Atlantic Coast Line R. Co.,
345 U.S. 379 (1953) ......................................... 1, 15
San Diego Building Trades v. Garmon,
359 U.S. 236 (1959) ...................................... passim

viii
Sarti v. Salt Creek Ltd.,
167 Cal.App.4th 1187 (2008) .............................. 17
Sears, Roebuck & Co. v. Carpenters,
436 U.S. 180 (1978) ...................................... passim
Teva Pharmaceuticals v. Superior Court,
217 Cal.App4th 96 (2013) ................................... 15
Three Affiliated Tribes v. Wold Engineering, P.C.,
467 U.S. 138 (1984) ............................................. 16
United Const. Workers v. Laburnum Const.
Corp., 347 U.S. 656 (1954) ............................ 20, 21
United Food & Commercial Workers v. Wal-Mart
Stores, 228 Md.App. 203 (Md.Ct.Sp.App.
2016), affirmed 453 Md. 482 (Md.Ct.App.
2017) .................................................................... 27
U.S. v. Enmons,
410 U.S. 396 (1973) ............................................. 20
Volentine v. Bechtel, Inc.,
27 F.Supp. 728, 733 (E.D. Tex. 1998) ................. 26
Wal-Mart Stores v. United Food & Commercial
Workers, 4 Cal.App.5th 194 (2016) ..................... 27
Williams v. Superior Court,
3 Cal.5th 531 (2017) .............................................. 8
Wisconsin Dept. of Industry v. Gould,
475 U.S. 282 (1986) ..............................4, 13, 23, 24
Constitution and Statutes
U.S. Const. Amend VIII ............................................. 1
U.S. Const. Amend XIV .............................................. 1
18 U.S.C. § 1833 ..................................................... 1, 2

ix
28 U.S.C. § 1257 ............................................. 1, 15, 16
29 U.S.C. § 152(3) ............................................... 18, 31
29 U.S.C. § 157 ......................................................... 28
47 U.S.C. § 230 ......................................................... 32
Cal. Bus & Prof. Code § 16600 ................................... 2
Cal. Bus & Prof. Code §§ 16720-16728 ...................... 2
Cal. Labor Code §§ 200-202...................................... 30
Cal. Labor Code §§ 500-512...................................... 30
Cal. Labor Code §§ 1285-1310.................................. 30
Regulations
17 C.F.R. § 240.21F-17 ......................................... 2, 16
29 C.F.R. § 102.9......................................................... 8
Rules
Supreme Court Rule 14.1(a) .................................... 18
Other Authorities
Alstate Maintenance LLC¸ 367 N.L.R.B. No 68,
2019 WL 183862 (2019) ................................ 28, 29
Motor City Pawn Brokers Inc., 369 NLRB No.
132, 2020 WL 4339249 (2020) ............................ 28

1
STATEMENT OF JURISDICTION
An appellate decision overruling a demurrer is not
a final judgment within the meaning of 28 U.S.C.
§ 1257. Pope v. Atlantic Coast Line R. Co., 345 U.S.
379, 382 (1953). No exception to this general rule applies. The Court lacks jurisdiction to review the decision below.
CONSTITUTIONAL, STATUTORY,
AND REGULATORY PROVISIONS INVOLVED
In addition to those identified in the petition, the
case also involves these provisions:
Federal Provisions
The Eighth Amendment of the United States Constitution states: “Excessive bail shall not be required,
nor excessive fines imposed, nor cruel and unusual
punishments inflicted.” U.S. Const. Amend VIII.
The Fourteenth Amendment to the United States
Constitution provides “nor shall any State deprive any
person of life, liberty, or property, without due process
of law. . . .” U.S. Const. Amend XIV, § 1. The full text
of section 1 is reproduced at App. 72.
Section 1833 of the Defend Trade Secrets Act requires that employers provide a “notice of immunity”
in any contract, agreement or policy document advising employees of their whistleblower rights. 18 U.S.C.

2
§ 1833. The text of this provision is reproduced at App.
72-74.
The Securities and Exchange Commission has
promulgated a rule, 17 C.F.R. § 240.21F-17, that prohibits conduct, including the use of confidentiality
agreements, that impede individuals from communicating with the SEC. The text of this regulation is reproduced at App. 75.
State Provisions
California Business & Professions Code § 16600
states: “Except as provided in this chapter, every contract by which anyone is restrained from engaging in
a lawful profession, trade, or business of any kind is to
that extent void.” Cal. Bus & Prof Code § 16600.
The California Cartwright Act prohibits restraints on competition. Cal. Bus & Prof. Code
§§ 16720-16728, The text of the relevant provisions
of this statute are reproduced at App. 76-82.
INTRODUCTION
The Court does not have jurisdiction to grant the
petition. Rather, the petition seeks review of an interlocutory decision, as to one federal issue, by an intermediate appellate court. All the federal issues in this
case may well become the subject of further review as
the case progresses. Even the federal issue raised by
the petition—National Labor Relations Act (NLRA)
preemption—is subject to further review by the courts
below because the petition concerns an interlocutory

3
decision based on the pleadings. (Petitioners Appendix
(“Pet.App.”) 3a, 11a).
The petition’s “Question Presented” also limits
the impact of this Court’s review on the underlying litigation. The Question asks whether a plaintiff’s state
remedies turn on the receipt of NLRA remedies premised on the same conduct. This misstates the proceedings below because much of the conduct is different;
the state claims concern additional acts and defendants that are unrelated to the NLRA proceedings.
Even if this Court found for Petitioners on the Question Presented, the underlying litigation would proceed on the unrelated or unaffected claims. Thus, even
assuming the Question Presented might one day merit
review, now is not the time.
And such an assumption is wrong in any event.
The Question does not ever merit review because the
answer is already well-settled. Under San Diego
Building Trades v. Garmon, 359 U.S. 236 (1959), the
same conduct, illegal for different reasons, can give
rise to remedies under the NLRA and state law. Congress passed the NLRA to protect rank-and-file employees who sought to engage (or not) in collective action, and to otherwise govern the relationship between
those employees, unions, and employers. The Act was
not intended to preempt state laws, passed as part of
the state’s police power, applicable to all employees—
union and non-union, current and former, rank-andfile and managerial—that establish minimum employment standards, protect individual employee rights,
and that concern deeply-rooted state interests.
By way of analogy, a union leader who murders
an employee because she refuses to join the union commits an unfair labor practice. Upon the filing of a

4
charge, the NLRB can issue a complaint and enter a
settlement that requires the union to post a notice
stating it will stop murdering recalcitrant employees
in violation of the Act. For the same conduct, the state
can charge the union and union leader with murder
and seek, as applicable, fines, prison time or capital
punishment (state penalties “piled on top” of the
NLRB notice remedy). The employee’s widow also can
file a wrongful death action seeking compensation and
punitive damages (still more state remedies). The
NLRB proceedings and settlement have no bearing on
the State’s prosecution and the widow’s litigation under state law.
This Court has found that the Garmon guidelines,
including its local interest exception, permit state law
regulation, remedies, and penalties for a continuum of
conduct that is also arguably or actually prohibited by
the Act. This conduct ranges from violence to trespass, to personal and economic torts, to contracts, and
more. The Court did not abandon or silently reverse
this law in Wisconsin Dept. of Industry v. Gould, 475
U.S. 282 (1986), as Petitioners contend. Gould narrowly concluded that a state cannot enforce the NLRA
itself (as opposed to state laws) through a spending
statute debarring violators of the NLRA. Gould did
not erase Garmon’s defined boundaries and eviscerate
the local interest exception. See, e.g., International
Longshoremen’s Ass’n, AFL-CIO v. Davis, 476 U.S.
380, 391 (1986).
The appellate court’s interlocutory decision was
an unexceptional application of the well-established
Garmon guidelines to a unique set of facts. The decision was also entirely correct.
The Court should deny the petition.

5
STATEMENT OF THE CASE
1. The operative complaint in this case (App. 1-71)
states twenty-three causes of action, twenty-two of
which are currently proceeding in the trial court. 1
Broadly, the complaint alleges that Google, Alphabet,
and Adecco maintain confidentiality policies, practices, and non-disclosure agreements (“NDAs”) – applicable to all their current and former employees (including supervisors and managers) – that unlawfully
restrict the right to compete, whistle blow, and speak
in violation of California law. (App. 3-5). The complaint identifies, for illustrative purposes, specific
agreements, policies and practices as examples of
these state law violations.
The competition claims are entirely ignored by the
petition. These claims allege that Petitioners’ overbroad NDAs and other policies constitute illegal restraints of trade. (App. 40-43, 64-65). Among other
things, the NDAs prevent employees from using general skills, knowledge, acquaintances, experience,
general business practices, and information readily
available to competitors, to compete with Petitioners
or find other work. (App. 40-41). Adecco’s NDAs and
policies also prohibit its employees from working for
its clients without Adecco’s permission – an ordinary
non-compete illegal under California law. (App. 33).

1

The fifth amended complaint is the same in all material respects
as the third and fourth amended complaints that were the subject
of the decision below. See Pet. App. 90a. The parties have agreed
to treat the fifth amended complaint as the operative one in the
trial court.

6
The whistleblowing claims allege that Petitioners’
NDAs, policies, and practices prohibit whistleblowing
about violations of federal and state law. Petitioners
prohibit employees from disclosing information about
illegal conduct to government agencies (including the
SEC and the Department of Justice) (App. 15, 58), outside attorneys for purposes of representation or investigation (App. 43-44), and within their own organizations. (App. 47). Indeed, Google expressly instructs
employees to avoid communications that conclude, or
appear to conclude, that Google has acted illegally or
violated the law. (App. 24-25).
The freedom of speech claims concern California’s
prohibition on agreements, policies, or practices that
restrict employee speech, including those that “seek to
control the nonwork aspects of their employees lives.”
(Pet. App. 14a). Google, for example, places a prior restraint on employees who might write a novel about
Silicon Valley. (App. 23). Petitioners also prohibit employees from sharing information about their working
conditions and wages with their spouses or parents
(App. 3-4, 60), posting their opinions about Google on
the internet (App. 21), revealing the identities of their
co-workers, or disclosing their disagreements or arguments with others. (App. 35).
A number of the state causes of action incorporate
federal law by reference. Respondents allege that Petitioners’ NDAs, policies, and practices violate federal
law because – among other things – they prohibit the
disclosure of information to the SEC, in violation of
SEC Rule 21F-17, and do not include the notice of immunity required by the Defend Trade Secrets Act.
(App. 15, 44-45, 64).

7
Respondents allege that Petitioners’ violations of
these laws are ongoing. (App. 30-31, 66-68). Google’s
training programs, for example, continue to prohibit
employees from using words like “marketshare” or
“dominance” that suggest Google is a monopoly. After
the appellate court issued the decision below, Respondents learned that Google’s NDAs and other policies also prohibit its YouTube “content moderators”
from discussing their working conditions, even with
their own therapists, for their own mental health reasons. 2 These allegations and others are, or will be, addressed in the current trial court proceedings.
As remedies, the Complaint seeks penalties under
PAGA and a public injunction. (App. 70). The case is
not, as Petitioners contend, just about penalties for
conduct already remedied.
2. Since the appeal, Google has answered Respondents’ complaint. Petitioners’ answers generally
deny the allegations and assert numerous defenses,
including ones based on federal law: i.e., that Respondents’ claims are barred, either in whole or in
part, by Garmon, and that PAGA, both on its face and
as applied, violates the Eighth and Fourteenth
Amendments to the U.S. Constitution.
3. On May 17, 2016, prior to filing the initial state
court complaint, Doe filed a PAGA notice with California’s Labor Workforce & Development Agency

2

The working conditions of content moderators include the regular review of YouTube videos featuring children being raped and
animals tortured to determine compliance with Google’s guidelines. These employees often suffer from depression, anxiety, and
other disorders.

8
(“LWDA”). 3 The PAGA notice alleged that two Google
policies, along with its standard NDA, violated specific
provisions of the California Labor Code. Subsequent
PAGA notices added allegations against Google, Alphabet, and Adecco based on additional policies, training programs, practices, and contracts.
On the same day that Doe filed his first PAGA notice, he also filed a ULP charge with the National Labor Relations Board against Google and Nest (an Alphabet subsidiary). 4 Anyone, including a CEO or
member of the public, can file a ULP charge. 29 C.F.R.
§ 102.9. Unlike the PAGA notices and state complaint,
the ULP charge made reference to only two Google policies. It was also limited to matters within the Board’s
jurisdiction. It stated in pertinent part: “Employers
[Google and Nest] maintain a data classification policy
and code of conduct that prohibits the exercise of section 7 rights.” (Respondents’ 5.09.19 Appellate Appendix, p. 319). To Respondents’ knowledge, no ULP
charge has ever been filed against Adecco with respect
to any of its policies or NDAs.
About four months after Doe filed his state complaint, an NLRB regional director filed a complaint
against Google and Nest. In contrast to the limited
allegations and two policies in Doe’s ULP charge, the
NLRB complaint asserted that Google’s NDA and
many of its policies violated sections 7 and 8 of the Act.
Unlike the state complaint (which alleges ongoing violations based on more than just Google’s policies), the
3

A PAGA notice to the LWDA is a required precursor to bringing
a PAGA claim. Williams v. Superior Court, 3 Cal.5th 531, 545
(2017).
4

Doe filed no charge against Alphabet.

9
NLRB complaint was limited to the Google NDA and
policies in effect between September 1, 2015 and November 1, 2016. (Respondents’ Appendix, p. 183 ¶ 6).
On September 28, 2018, after the trial court had
sustained the demurrers to the state complaint, the
regional director – referencing changes to the Board’s
interpretation of the Act – dismissed the majority of
the allegations in the NLRB’s complaint as not violating the Act. The dismissed allegations included all of
the allegations arising from Google’s NDA, and many
of the allegations arising from Google’s policies. (Respondents’ 5.9.2019 Request for Judicial Notice
(“RJN”), Ex. 1).
Respondents appealed the trial court’s demurrer
orders and filed their opening brief with the state appellate court. In September 2019, after Respondents
had filed their opening brief, and more than two years
after the trial court sustained the demurrers, the
NLRB regional director, Google, and Nest entered into
an informal settlement of the NLRB complaint’s remaining allegations. The informal settlement, by its
terms, resolved only what remained of the NLRB complaint: allegations concerning specific language in specific Google policies for the time period between September 2015 and November 2016. The informal settlement stated: “This Agreement settles only the allegations in the above-captioned case(s) and does not
settle any other cases or matters.” (Pet. App. 172a
(emphasis added)).
Doe objected to the informal settlement, arguing,
among other things, that it was unenforceable because
it sought to remedy conduct outside the Board’s limited jurisdiction (e.g., conduct unrelated to protected
concerted activity and conduct affecting supervisors

10
and former employees beyond the Act’s jurisdiction).
(Respondents’ 2.3.2020 RJN, Ex. 3). The regional director dismissed the objection, explaining “the Settlement Agreement covers only the alleged violations of
the Act and does not seek to remedy or cover other
matters not before the Board.” (Pet.App. 165a). Doe
appealed this decision to the Board’s General Counsel
(Respondents’ 2.3.2020 RJN, Ex. 4), who rejected the
appeal for the same reasons. (Id., Ex. 5).
As part of the informal settlement, Google agreed
to post a notice advising employees of their section 7
rights under federal law and stating that Google
would not violate those federal rights. There is no evidence that Google has remedied any state law violations. Respondents contend Google, Alphabet and
Adecco continue to promulgate and enforce NDAs, policies, and practices that violate state law. There is no
NLRB settlement of any sort with Adecco, or with Alphabet directly.
In their answering briefs to the state appellate
court, Petitioners primarily argued that the trial
court’s demurrer orders should be sustained because
of the post-appeal informal settlement with the regional director. Also in their briefs, Petitioners did not
dispute that the trial court erred in concluding the Act
applied to claims concerning supervisors and former
employees outside the Act’s jurisdiction. (See Petitioners’ 10.15.2019 and 10.21.2019 Appellate Briefs).
4. In its opinion, the California Court of Appeal
unanimously concluded the trial court erred in sustaining the demurrers with respect to Respondents’
state law competition claims, whistleblower claims
with respect to matters unrelated to employment
terms, and the majority of their freedom of speech

11
claims (e.g., the writing of creative fiction). (Pet.App.
16a-17a (majority opinion), 40a-41a (concurring/dissenting opinion). The appellate court found these
claims, on their face, concerned conduct not even arguably prohibited by the Act. (Pet.App. 16a, 40a).
However, because some of the conduct alleged in
the complaint was arguably prohibited by the Act, the
appellate court considered the local interest exception
to Garmon preemption. The majority concluded the
exception applied under three different analyses.
First, the majority conducted a balanced inquiry
into the federal and state interests at stake, taking
into account the risk of interference with the NLRB’s
jurisdiction. (Pet App. 12a-22a). Second, the majority
conducted the critical inquiry set forth in Sears, Roebuck & Co. v. Carpenters, 436 U.S. 180 (1978) as to
whether the controversy presented to the NLRB was
identical to the controversy presented to the state
court. (Pet.App. 22a-25a). Third, the majority considered whether the claims were preempted under the
concurring/dissenting opinion’s “crucial element” test.
(Pet.App. 25a-30a). 5 Under each analysis, the appellate court found the claims not preempted under the
Garmon guidelines.
As for the federal interests, the majority explained the Act’s purpose, which includes the exercise
5

The crucial element test posited by the concurring/dissenting
opinion is premised on its understanding that Local 926, Intern.
Union of Operating Engineers v. Jones, 460 U.S. 669 (1983) modified Sears. (Pet.App. 52a). However, following Jones, this Court
reaffirmed Sears’ identical controversy test in Belknap, supra,
463 U.S. at 510. Petitioners, appropriately, do not ask this Court
to resolve any perceived tension between Sears and Jones. (Pet.
p. 22 n. 7).

12
by workers of their full freedom of association for the
purpose of mutual aid and protection. The majority
reasoned the Act’s focus was on nonexempt employees
(those within its jurisdiction) joining together for their
mutual benefit. (Pet. App. 13a). The majority also observed that “the NLRA ‘is aimed at safeguard[ing],
first and foremost, workers right to join unions and to
engage in collective bargaining.” (Pet.App. 19a (citing
Epic Systems Corp. v. Lewis, 138 S. Ct. 1612 (2018)).
As for the state’s interests, the majority explained
that the state laws at issue in Respondents’ complaint
apply to all employees (including those outside the jurisdiction of the Act) as individuals. (Pet. App. 13a14a). “The state statutes plaintiffs seek to enforce [include] statutes that preserve the freedom of all employees to practice their profession or trade, to report
wage-and-hour violations or unsafe working conditions to government agencies, and to speak as they
choose about their work lives.” (Pet. App. 19a (citations omitted, emphasis added). In assessing the
state’s interests, the majority also observed that “preemption should not be lightly inferred in this area,
since establishment of labor standards falls within the
traditional police power of the State.” (Pet.App. 18a
(citing Fort Halifax Packing Co. v. Coyne, 482 U.S. 1,
20-21 (1987)).
Google argued that – notwithstanding the state’s
interests – the local interest exception did not apply
because of the ULP charge and the informal settlement. Thus, it argued, Respondents’ PAGA claims
against Google, if allowed to continue, would interfere
with the Board’s jurisdiction.
The majority rejected Google’s argument for two
reasons. First, there was no likelihood of a state court

13
reaching a different finding on liability than the regional director because the regional director made no
liability finding. (Pet.App. 21a). Besides, the local interest exception can permit different factual findings
with respect to conduct that gives rise to both an unfair labor practice and a state law violation. (Pet.App.
31a-32a (citing Linn v. United Plant Guard Workers,
383 U.S. 53 (1966)). Second, there was no chance the
state complaint would generate duplicative NLRB
remedies because the state claims required proof of
state law violations, not NLRA violations. (Pet.App.
22a). The state sanction in Gould, by contrast, required an NLRB decision concluding the employer had
violated the Act.
Because the majority found no preemption as to
Google (where there was a ULP charge, a complaint,
and an informal settlement), it also found no preemption as to Adecco (where there were no NLRB proceedings at all). The majority simply noted that “Adecco
admits there is no meaningful difference between [the]
claims against Google and those against Adecco.” 6
(Pet.App. 7a). Because there was no need to do so, the
majority also did not address Garmon’s effect on the
state claims to the extent they concerned employees,
like Respondents, outside the Act’s jurisdiction.
5. Justice Brown, in her concurring and dissenting opinion, parted from the majority only with respect
to the claims against Google as they related to whistleblowing and speech about wages and working
6

Respondents argued below that, even if the claims as to Google
were preempted by the NLRB proceedings and informal settlement, the claims as to Adecco were not. (Respondents’ 2.03.2020
Reply Brief pp. 29-30; Respondents’ 11.10.2020 Opposition Brief
to California Supreme Court, p. 24).

14
conditions. Her dissent as to this subset of claims was
based on this understanding of the facts: (1) Doe filed
a ULP charge against Google and Alphabet with the
Board alleging Google’s confidentiality policies violated the Act; (2) The regional director issued a complaint based on the charge; (3) Google agreed to withdraw those portions of its confidentiality policies on
which the regional director based her complaint; and
(4) the state court complaint challenges the same policies. (Pet App. 39a). Justice Brown found that “in
these circumstances, I conclude that some of plaintiffs’
claims pose a substantial risk of interference with the
NLRB’s jurisdiction.” (Id. (emphasis added)).
Justice Brown based this conclusion on her understanding – disputed by Respondents and the record –
that Google had remedied through the informal settlement all the relevant violations against Google alleged
in the state complaint, and that Respondents should
not be able to seek PAGA penalties arising from conduct the Board had remedied. Justice Brown, like the
majority, did not separately address any of the claims
against Adecco (including those for injunctive relief),
nor whether Garmon preempted claims against
Google or Adecco arising from state law violations as
to employees outside the Act’s jurisdiction.
6. Petitioners requested review by the California
Supreme Court, which was denied. On January 21,
2021, the appellate court issued a remittitur to the
trial court, where the case is currently proceeding. At
the trial court’s direction, the parties have since
lodged with the court a list of Google agreements, policies, and other documents at issue in the case. The
documents identified (which Respondents contend are
incomplete) span a six-year time frame, from August
2015 to the present.

15
From a pleadings, discovery, and trial perspective, the case is in its infancy. No trial date is set.
REASONS FOR DENYING THE WRIT
I.

THIS COURT NEITHER CAN NOR
SHOULD ASSERT JURISDICTION TO
REVIEW THE APPELLATE COURT’S INTERLOCUTORY DECISION.

Unless an exception applies, an appellate decision
overruling a demurrer is not a final judgment. 28
U.S.C. § 1257. Pope, supra, 345 U.S. at 382. It is not
an effective determination of the litigation, and it is
not the final word of a final state court. Jefferson v.
City of Tarrant, 522 U.S. 75, 81 (1997).
Exceptions to this final judgment rule can arise in
situations where a state’s highest court has finally determined the federal issue in the case, but there are
still proceedings to be had in the lower courts. Cox
Broadcasting Corp v. Cohn, 420 U.S. 469, 478 (1975).
Normally, these lower court proceedings will not require resolution of yet more federal issues. Id.
Here, California’s highest court has not finally determined the Garmon issue. Rather, it declined to review an interlocutory decision overruling demurrers to
a complaint based on California’s permissive pleading
standard. See Teva Pharmaceuticals v. Superior
Court, 217 Cal.App4th 96, 110 (2013). The petition
complains of California’s pleading standards – arguing it “makes preemption easily avoidable by all but
the most inept of complaint-drafters” (Pet. p. 20) – but
California’s pleading standards are of no interest to

16
this Court. Garmon preemption does not turn on the
pleadings. It is a defense that must be established
with evidence. Davis, supra, 476 U.S. at 398. Nothing precludes the California Supreme Court (or this
Court) from considering the preemption defense
through subsequent proceedings when there is a developed record. 7
These subsequent proceedings may well require
review of federal issues in addition to Garmon
preemption: e.g., whether Petitioners’ agreements and
policies violate SEC Rule 21F-17 and the Defend
Trade Secrets Act (and thus also violate state law), 8
and whether Respondents’ PAGA claims, and PAGA
itself, violate the Eighth and Fourteenth Amendments. It is a waste of this Court’s resources, and contrary to 28 U.S.C. § 1257, to consider the federal issues
piecemeal. E.g., North Dakota State Bd. v. Snyder’s
Drug Stores, Inc., 414 U.S. 156, 159 (1973). “[W]here
the remaining litigation may raise federal questions
that may later come here . . . to allow review of an intermediate adjudication would offend the decisive objection to fragmentary reviews.” Id.
In the face of these facts and applicable law, Petitioners contend this Court has jurisdiction based on
7

The analysis under 28 U.S.C. § 1257(a) does not change even if
the California courts, applying state law, treat the decision below
as “the law of the case.” Jefferson, supra, 522 U.S. at 76.

8

A federal issue arises when the vindication of a right under state
law necessarily turns on the construction of federal law. Merrill
Dow Pharmaceuticals v. Thompson, 478 U.S. 804, 809 (1986).
This Court also has jurisdiction to review a state court’s interpretation of state law that has been influenced by an accompanying
interpretation of federal law. Three Affiliated Tribes v. Wold Engineering, P.C., 467 U.S. 138, 152 (1984).

17
three cases that, unlike this one, involved unions and
labor disputes. None justify a departure from the regular final judgment rule. Belknap v. Hale, 463 U.S.
491, 498 (1983), Davis, supra, 476 U.S. at 384, and Local No. 438 Const. and General Laborers Union v.
Curry, 371 U.S. 542, 543-45 (1963), each involved
binding state court decisions that finally resolved the
issue of Garmon preemption, the only federal question
at issue, after the consideration of evidence, and
where reversal would terminate the proceedings below. Here, Petitioners seek review of an initial state
court decision, based on the pleadings (not the evidence), that has no horizontal (or binding) stare decisis
effect. E.g., Sarti v. Salt Creek Ltd., 167 Cal.App.4th
1187, 1193 (2008). The case also involves numerous
(not one) federal issues, and a reversal based on the
Question Presented would not terminate the proceedings below.
An interim judicial opinion – even if erroneous
(and this one was not) – that affects only the parties
involved, that arises from an unlikely-to-be-repeated
fact pattern, and that binds no state supreme, appellate, or federal court poses no realistic risk of seriously
eroding federal policy. The fact that the decision concerns a court’s jurisdiction is not dispositive of the final judgment inquiry. State and federal courts routinely face challenges to their jurisdiction based on
preemption, due process, Article III standing, and otherwise. A court’s conclusion that it has jurisdiction,
even if erroneous, is not a final judgment. It is more
often the very first judgment. E.g., Mansfield, C. v.
L.M. Ry Co. v. Swan, 111 U.S. 379, 382 (1884).

18
II.

THE
PETITION’S
QUESTION PRESENTED MISREPRESENTS THE PROCEEDINGS BELOW

The petition’s Question Presented is: “Where
plaintiff has sought and obtained relief under the National Labor Relations Act, does the Act preempt
plaintiff’s state law claims for penalties for the same
conduct.” The Question misstates the facts, as well as
the past and current proceedings. 9
The NLRB proceedings and the state law claims
do not concern all the same conduct. Plaintiff John
Doe sought relief under the NLRA with respect to only
two Google policies, and only as they related to interference with section 7 rights (i.e., the right of current
rank-and-file employees to engage in protected concerted activity). No NLRA relief was sought by any
other plaintiff. No NLRA relief was sought against
Adecco or Alphabet. No NLRA relief was or could be
sought with respect to claims related to supervisors
and former employees who, like Respondents, are outside the jurisdiction of the Act. 29 U.S.C. § 152(3); Allied Chemical and Alkali Workers of America v. Pittsburgh Plate Glass Co., 404 U.S. 157, 172 (1971) (former employee retirees – those whose work had ceased
with no expectation of return – not employees under
the Act); NLRB v. Yeshiva University Faculty Ass’n,
444 U.S. 672, 681-83 (1980) (managers and supervisors outside the jurisdiction of the Act). In other
words, Respondents seek PAGA penalties and a public injunction for conduct beyond the limited policies
alleged in the ULP charge, beyond the limited policies
9

This Court only considers questions set out in the petition or
fairly included therein. Supreme Court Rule 14.1(a).

19
alleged in the NLRB complaint (both before and after
the partial dismissal), and beyond the limited policy
language for the limited period of time purportedly addressed through the informal settlement.
Thus, if this Court were to grant review of the
Question Presented and rule in Respondents’ favor on
the Question, the trial court proceedings would continue unabated. The case would proceed in its entirety
against Adecco and Alphabet (because there were no
NLRB proceedings as to them), in its entirety with respect to the claims relating to supervisors and former
employees (because they are beyond the Act’s jurisdiction), and in its entirely with respect to conduct not
alleged in the ULP charge or encompassed by the informal settlement. Not a single cause of action would
be entirely preempted.
III.

THE QUESTION PRESENTED HAS BEEN
LONG RESOLVED
A.

Under Garmon’s Local Interest Exception, States Can and Do Regulate
Conduct Arguably and Actually Prohibited by the Act.

It is well-settled that a party can seek state remedies in state courts for conduct that is also arguably
or actually prohibited by the NLRA. “[T]he history of
the labor pre-emption doctrine in this Court does not
support an approach which sweeps away state-court
jurisdiction over conduct traditionally subject to state
regulation without a careful consideration of the relative impact of such a jurisdiction bar on the various

20
interests affected.” Sears, Roebuck & Co. v. San Diego
County Dist. Council of Carpenters, 436 U.S. 180, 188
(1978).
Thus, and depending on the circumstances, a
state may enforce its own laws through punitive and
corrective measures, even when those laws regulate
conduct arguably or actually prohibited by the Act.
E.g., U.S. v. Enmons, 410 U.S. 396, 398 (1973) (“Acts
of violence occurring during a lawful strike and resulting in damage to persons or property are undoubtedly
punishable under State law.”). That is the whole point
of Garmon’s exceptions, which are baked into Garmon
itself. Garmon, supra, 359 U.S. at 247. “[D]ue regard
for the presuppositions of our embracing federal system . . . has required us to not find withdrawal from
the States of power to regulate . . . . where the regulated conduct touches interests so deeply rooted in local feeling and responsibility that, in the absence of
compelling congressional direction, we could not infer
that Congress had deprived the States of the power to
act.” Id. at 244 (emphasis added, citations omitted).
“[W]hen the Board and state law frown upon [the
same conduct], albeit for different reasons, it may be
expected the injured party will seek both administrative and judicial relief.” Linn, supra, 383 U.S. at 66.
As explained by Senator Taft, state and NLRA remedies for certain conduct, unlawful for different reasons, can and should co-exist. “There is no reason in
the world why there should not be two remedies for an
act of that kind.” United Const. Workers v. Laburnum
Const. Corp., 347 U.S. 656, 668-69 (1954). The Act
gives no ground “for concluding that existing criminal
penalties or liabilities for tortious conduct have been
eliminated.” Linn, supra, 383 U.S. at 662 (citations
omitted).

21
Through repeated application of the Garmon
guidelines, this Court has concluded that conduct
which is actually or arguably prohibited by the Act can
also give rise to state law claims and remedies (including public and punitive remedies) for, among other
things: (1) violence or threats of violence (Laburnum,
supra, 347 U.S. at 668-69; (2) trespass (Sears, supra,
436 U.S. at 188); (3) defamation (Linn, supra, 383 U.S.
at 66); (4) infliction of emotional distress (Farmer v.
Carpenters, 430 U.S. 290 (1977)); (5) employment misrepresentation (Belknap, supra, 463 U.S. 491; and
(6) breach of contract (Belknap).
B.

NLRB Proceedings Are Not Dispositive of the State’s Right to Regulate
Conduct That Separately Violates
State Law.

In light of this Court’s precedents, the existence
or outcome of a ULP charge or NLRB settlement is not
dispositive of any analysis under the Garmon guidelines. Otherwise, the question of preemption would be
placed in the hands, not of Congress or the courts, but
of the person who decides to file a ULP charge in the
first place.
Of course, if preemption depends on whether
someone files a ULP charge, then many persons will
not file a charge to avoid the loss of state remedies.
This “has a direct tendency to frustrate the purpose of
Congress to leave people free to make charges of unfair labor practices to the Board.” E.g., Nash v. Florida Indus. Commission, 389 U.S. 235, 239 (1967). It
is also contrary to Linn, which expects a party to seek

22
both NLRA and state law remedies when the same
conduct is unlawful for different reasons.
For example, in Nash, Florida withheld unemployment insurance – a state remedy – from employees who also filed a ULP charge claiming their termination arose from a labor dispute. Even though the
same conduct was at issue in both the ULP charge and
the unemployment proceeding, the Court struck down
the Florida law as interfering with the Act because it
deterred the filing of charges. Id. at 239. Thus, it violated the NLRA to withhold a state remedy for conduct for which there was also an NLRA remedy. Id. at
239.
Similarly, Linn found a state libel action could
proceed against the union despite both a ULP charge
alleging the libel was prohibited by the Act and a regional director’s finding that the union did not commit
the libel. These facts, including that the state court
might make factual findings different than the NLRB
with respect to the union’s responsibility, did not matter under Garmon. “Judicial condemnation of the alleged attack on Linn’s character would reflect no judgment upon the objectives of the union. It would not
interfere with the Board’s jurisdiction over the merits
of the labor controversy.” Id. at 64.
Finally, Belknap, supra, 463 U.S. 491, determined
that state breach of contract and misrepresentation
claims for employer misconduct could proceed under
the Garmon guidelines, despite a ULP charge alleging
the same conduct was prohibited by the Act, an NLRB
complaint based on that charge, and an NLRB settlement requiring the employer to breach the contracts
and defy the representations in violation of state law.
Id. at 495-498.

23
In none of these cases did the existence of a ULP
charge, NLRB complaint, or NLRB settlement justify
the preemption of state claims or the pursuit of state
remedies. The present case is no different. It establishes no new law. It is just another intermediate appellate court ruling that analyzes a unique set of facts
against the pre-existing Garmon guidelines.
C.

Gould Did Not Silently Eliminate
Garmon’s Exceptions

The petition’s Question Presented depends entirely on an analysis of Wisconsin Department of Industry v. Gould, 475 U.S. 282 (1986) that contradicts
the cases upon which Gould is based, including Garmon itself.
Gould did not involve the state’s police power. Rather, it was a direct challenge to a state spending statute that debarred certain repeat violators of the NLRA
from doing business with the state. Id. at 284-85. The
state in Gould conceded the purpose of the debarment
statute was to deter violations of the NLRA, as opposed to violations of distinct state laws. Id. at 228.
Because “[t]he manifest purpose and inevitable effect
of the debarment rule is to enforce the requirements
of the NLRA,” it was preempted by the NLRA. Id. at
291. Gould did not discuss the local interest exception
to Garmon preemption because no local interest was
asserted. 10
10

The two cases cherry-picked by the petition to support its expansive reading of Gould do not help Petitioners. Motor Coach
Employees v. Lockridge, 403 U.S. 274, 296 (1971) involved a state

24
Here, and in contrast to Gould, Respondents do
not seek to enforce the NLRA through a spending statute. Respondents seek to enforce state laws, enacted
pursuant to the state’s police power, establishing minimum employment standards applicable to all employees, that require no determination as to whether Petitioners violated the Act.
IV.

APPLICATION OF THE GARMON GUIDELINES IS CASE-SPECIFIC
A.

There is No Conflict Between This
Case and Any Other Case

The Garmon guidelines should not be applied in a
“literal, mechanical fashion.” Jones, supra, 460 U.S. at
676; Sears, supra, 436 U.S. at 188. The “inflexible
application of the doctrine is to be avoided, especially
when the State has a substantial interest in regulation of the conduct at issue and the State’s interest is
one that does not threaten undue interference with
the federal regulatory scheme.” Sears, supra, 436 U.S.
at 188. Applying the Garmon guidelines requires “a
balanced inquiry into such factors as the nature of the
federal and state interests in regulation and the
court action that turned on the proper interpretation of a collective bargaining agreement, “a matter to which . . . federal concern
is pervasive and regulation complex.” While finding the claim
preempted, Lockridge expressly acknowledged the continued vitality of the exceptions to the Garmon guidelines. Garner v.
Teamsters, 346 U.S. 485 (1953) was a pre-Garmon case involving
a state’s attempt to prohibit an unfair labor practice through enforcement of its “mini-NLRA.” Id. at 487 -489.

25
potential for interference with federal regulation.”
E.g. Farmer, supra, 430 U.S. at 300.
The petition suggests that “it is not for the California Court of Appeal” to conduct this balanced inquiry. (Pet. p. 10). But it is. State judges are bound
by the United States constitution, laws, and treaties
just like federal judges. Huffman v. Pursue, Ltd., 420
U.S. 592, 611 (1975). This Court does not assume that
state judges are unfaithful to, or incapable of complying with, their constitutional responsibilities. Id.
All courts – state and federal – must apply the
Garmon guidelines to the specific case before them.
This means that different fact patterns, involving different laws, result in different outcomes. What Petitioners describe as a “direct conflict” between this case
and three federal circuit court cases is nothing of the
sort. Each case involves an application of the well-established Garmon guidelines to different facts and
laws.
In Parker v. Connors Steel Co., 855 F.2d 1510
(11th Cir. 1988), union employees sued both their employer and their union for fraud and breach of the duty
of fair representation. In Platt v. Jack Cooper
Transport, Co., Inc., 959 F.2d 91 (8th Cir. 1992), a union employee filed a grievance under the collective
bargaining agreement (and lost), filed an unfair labor
practice with the NLRB (and lost), then proceeded to
state court alleging wrongful termination. In Chaulk
Services, Inc. v. Massachusetts Commission Against
Discrimination, 70 F.3d 1361 (1st Cir. 1995), a union
filed a ULP charge alleging interference with a union
employee’s organizing activity and the union employee
filed a state claim with a state agency based on the
same organizing activity. Id. at 1363.

26
In each of these cases, the controversy presented
to the state court was the same as the controversy presented to the NLRB within the meaning of Sears’ identical controversy test. In Chaulk, the union employee’s state claims were expressly based on her union activity. Id. at 1366. In Platt, the union employee’s state claims were based on conduct protected
by the collective bargaining agreement and the Act.
Platt, supra, 959 F.2d at 95. In Parker, the union employees raised state claims that were “in substance allegations that the Company breached its duty to bargain in good faith.” Parker, supra, 855 F.2d at 1516.
In Parker and Platt, the circuit courts also suggested, in dicta: “We believe that the primary jurisdiction rationale has the greatest validity when a party
has sought redress for his claims from the NLRB and
in the face of an adverse decision the claims are restructured as state law claims and pursued in state
court.” E.g., Parker, supra, 855 F.2d at 1517; Platt,
supra, 959 F.2d at 95.
This “suggestion of the law” 11 does not create a
conflict about the Garmon guidelines themselves. To
the extent the suggestion is accurate – and not contrary to Nash, Linn, and Belknap – it simply means
that the existence of a prior ULP charge is one factor
that may be considered in applying the guidelines to
the case at hand.
For example, Platt and Parker both concerned
conduct protected by the Act, which is analyzed differently than conduct prohibited by the Act. Sears, supra, 436 U.S. at 200; (Pet. App. 28a-29a).
Courts
11

Volentine v. Bechtel, Inc., 27 F.Supp. 728, 733 (E.D. Tex. 1998)
(refusing to find preemption based solely on Parker’s “suggestion”
of the law.)

27
have concluded that the existence of a prior ULP
charge or NLRB settlement carries less force in these
latter cases. See, e.g., United Food & Commercial
Workers v. Wal-Mart Stores, 228 Md.App. 203, 211212 (Md.Ct.Sp.App. 2016), affirmed 453 Md. 482
(Md.Ct.App. 2017) (finding no preemption of trespass
action against the union despite ULP charges and
NLRB settlement arising from the same conduct);
Wal-Mart Stores v. United Food & Commercial Workers, 4 Cal.App.5th 194, 216-219 (2016) (distinguishing
Parker, and finding no preemption of trespass action
against union despite prior ULP charge arising from
the same conduct).
Regardless, the decision below did, in fact, consider the ULP charge and NLRB settlement in applying the Garmon guidelines. It also considered that,
unlike the cases relied upon by Petitioners, this case
involved no union and no labor dispute, the state laws
at issue protect all employees as individuals, none of
the claims challenged conduct arguably protected, as
opposed to arguably prohibited, by the Act, and the
controversy presented to the state court was different
than the one presented to the NLRB. In light of the
specific circumstances of this case, the decision below
found no preemption under the Garmon guidelines.
That other cases, applying the same guidelines, have
found preemption based on different circumstances is
not the stuff of Supreme Court review.

28
B.

Petitioners’ Disagreement With The
Application of the Garmon Guidelines Does Not Justify Supreme
Court Review

Petitioners argue the decision below was wrong
because employer NDAs and related policies restricting speech about terms and conditions of employment
strike “at the heart of protected Section 7 rights” (Pet.
p. 14). Petitioners did not make this argument to either the appellate court or the state supreme court and
have thus waived it.
Assuming the argument is not waived, it fails.
The Act protects the right of statutory employees to
engage (or not engage) in protected concerted activity.
29 U.S.C. § 157. Activity is protected when, among
other things, it is “for mutual aid and protection.” Id.
This language is narrow, and only embraces objects
similar in nature to “self-organization, forming, joining, or assisting labor organizations, or bargaining collectively.” Epic Systems, supra, 138 S. Ct. at 1625. Activity is “concerted” when it is group action rather
than action solely on behalf of the employee as an individual.
E.g., Alstate Maintenance LLC¸ 367
N.L.R.B. No 68 (2019), 2019 WL 183862 * 3.
Thus, while the right of statutory employees to
discuss wages and working conditions with each other
for the purpose of engaging in protected concerted activity may be central to the Act, the same speech to
third-parties, even for section 7 purposes, is less so.
E.g, Motor City Pawn Brokers Inc., 369 NLRB No. 132,
2020 WL 4339249, *7-9 (2020) (non-disparagement
rule does not violate the Act even though it infringed
on section 7 rights). And the right of all employees to
speak about their employers, wages, or working

29
conditions for reasons unrelated to section 7 rights -e.g., to negotiate a higher salary with a new employer,
impress a date, write a book, see a therapist, or complain, on an individual basis, about their wages – is
not protected at all by the Act. See, e.g., Alstate, supra,
2019 WL 183862, *3-4. This right is, however, established and protected by California’s anti-gag rule.
(Pet. App. 19a).
Petitioners also contend the decision below failed
to appropriately weigh the risk of interference with
the NLRA’s regulatory scheme in light of the NLRB
settlement as to Google. But contrary to the petition’s
claim, an NLRB proceeding – regardless of whether it
results in a finding that the employer violated the Act
– does not deprive state courts of jurisdiction to enforce state laws under the local interest exception.
Garmon, supra, 359 U.S. at 247. Even if it did, the
settlement here did not result in a finding that Google
had committed an unfair labor practice. Rather, the
settlement was similar to the dismissal of the ULP
charge in Linn (where there was also no finding of liability under the Act). In neither this case nor Linn did
the outcome of the ULP charge affect the state court’s
jurisdiction. As the decision below explains, even
when there is a serious concern of interference:
“Where the local interest is strong, even the possibility
of factual findings that conflict with the NLRB need
not be fatal.” (Pet. App. 31a).
The petition also makes much of the decision’s
statement that certain language in the NLRB settlement suggested the regional director did not see the
state action as a threat to the NLRB’s jurisdiction.
(Pet p. 17-19). This argument, also, was not raised by
Petitioners below and is waived. Regardless, the language in the decision about the meaning of specific

30
settlement language is dicta sandwiched between the
appellate court’s conclusion that there was no preemption under a balanced inquiry analysis (Pet App. 17a20a) and no preemption under Sears’ single controversy test. (Pet App. 22a-25a).
Even if this language was more than dicta, the decision’s interpretation of the specific settlement before
it was correct under Garmon. Both the regional director and the General Counsel confirmed – when confronted with Doe’s objections – that “the Settlement
Agreement covers only the alleged violations of the Act
and does not seek to remedy or cover other matters not
before the Board.” (E.g., Pet. App. 165a). In other
words, the regional director, General Counsel, and appellate court are in accord as to the limited import of
the NLRB settlement as it relates to the pending state
court action.
Lastly, Petitioners argue the decision overweighed the State’s interests based on Petitioners’ belief the decision “strongly suggests that any PAGA
claim [to enforce the California Labor Code] would
qualify for the local interests exception.” (Pet. p. 19).
This misreads the decision, which specifically states
that Garmon establishes no bright line rules.
(Pet.App. 31a-32a). It is also a strawman. The California Labor Code – including “the 151 different types
of Labor Code violations for which PAGA penalties are
available” (Pet. p. 20) – largely concerns things like
the payment of wages (e.g. Labor Code §§ 200-202),
working hours (e.g., Labor Code §§ 500-512), child labor (e.g., Labor Code §§ 1285-1310), and the like.
These provisions have nothing to do with conduct arguably or actually prohibited by the Act, and their continued existence poses no threat at all to the NLRB’s
jurisdiction.

31
The appellate court conscientiously applied the
Garmon guidelines to the facts and claims before it.
Petitioners’ disagreement with this particular application of the Garmon guidelines is not a basis for granting review.
V. SUMMARY REVERSAL IS INAPPROPRIATE
Petitioners finally assert the decision below
should be summarily reversed because of its “radical
expansion” of the local interest exception. As detailed
above, there was no radical expansion; just an ordinary, case-specific, application of the Garmon guidelines.
Petitioners, on the other hand, seek through summary reversal immunity from state laws concerning
restrictive covenants, whistle-blowing, and speech
that are, on their face, entirely unrelated to the mutual aid and protection covered by the Act. (Pet.App.
16a). They also seek immunity from state laws protecting employees, like supervisors, undisputedly outside the jurisdiction of the Act. 29 U.S.C. § 152(3). And
they seek immunity from these state laws for all Petitioners because John Doe, a supervisor outside the jurisdiction of the Act, filed a ULP charge as to one Petitioner, even though this Court has concluded that
denying a state remedy because a person files a charge
is contrary to the Act. Nash, supra, 389 U.S. at 239.
In other words, it is the petition that seeks the
“radical” remedy. But the Garmon guidelines are not
radical. Regardless of whether Congress might have
granted companies like Google broad immunity from

32
other state laws in other circumstances, 12 it granted
them no such broad immunity from the state laws at
issue here when it passed the NLRA.
The petition should be denied.
Respectfully submitted.

JAHAN SAGAFI
OUTTEN & GOLDEN LLP
1 California St.
Ste 1250
San Francisco, CA 94104
jsagafi@outtengolden.com
(415) 638-8808

MICHAEL SCIMONE
JULIO SHARP-WASSERMAN
OUTTEN & GOLDEN LLP
685 3rd Ave, 25th Floor
New York, NY 10017
msccimone@outtengolden.com
jsharp-wasserman@outtengolden.com
(212) 245-1000

CHRIS BAKER
Counsel of Record
DEBORAH SCHWARTZ
BAKER CURTIS & SCHWARTZ, P.C.
1 California St.
Suite 1250
San Francisco, CA 94111
cbaker@bakerlp.com
(415) 433-1064

Counsel for Respondents
September 8, 2021

12

See, e.g., 47 U.S.C. § 230; Malwarebytes, Inc. v. Enigma Software Group U.S.A. LLC, 141 S.Ct. 13 (2020) (Statement of Justice Thomas).

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix 1 Fifth Amended Complaint in the
Superior Court of California County of
San Francisco
(November 21, 2017) . . . . . . . . . . . App. 1
Appendix 2 Constitutional, Statutory, and
Regulatory Provisions
Involved . . . . . . . . . . . . . . . . . . . . App. 72

App. 1

APPENDIX 1
CHRIS BAKER, State Bar No. 181557
cbaker@bakerlp.com
DEBORAH SCHWARTZ, State Bar No. 208934
dschwartz@bakerlp.com
BAKER CURTIS & SCHWARTZ, P.C.
44 Montgomery Street, Suite 3520
San Francisco, CA 94104
Telephone: (415) 433-1064
Fax: (415) 366-2525
Attorneys for Plaintiffs
JOHN DOE, DAVID GUDEMAN
AND PAOLA CORREA
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
_________________________________________
JOHN DOE, DAVID GUDEMAN
)
and PAOLA CORREA on behalf of the
)
State of California and aggrieved employees, )
)
Plaintiff,
)
)
vs.
)
)
GOOGLE, INC., ALPHABET, INC.,
)
ADECCO USA INC., ADECCO GROUP
)
NORTH AMERICA and ROES 1 through 10, )
Defendants.
)
_________________________________________ )

App. 2
Case No. CGC-16-556034
[Filed November 21, 2017]
FIFTH AMENDED COMPLAINT PURSUANT
TO THE PRIVATE ATTORNEYS GENERAL
ACT
DEMAND FOR JURY TRIAL
Dept: 304
Judge Curtis Karnow
Complaint Filed: December 20, 2016
Trial Date: Not Set
IMPORTANT NOTES
1.
In this Fifth Amended Complaint, Plaintiffs
Doe Gudeman, and Correa re-allege the causes of
action 1 through 22 that the Court dismissed without
leave to amend. Correa also re-alleges the 23rd cause
of action as to Adecco with respect to the GBike and
Social Event Releases that the Court dismissed without
leave to amend.
2.
Plaintiffs re-plead these causes of action here
as a matter of caution, in order to preserve without
doubt their right to appeal the Court’s prior orders in
this case, including the June 27, 2017 Order, the
September 14, 2017, and the November 7, 2017 Order.
See, e.g., County of Santa Clara v. Atlantic Richfield
Co. (2006) 137 Cal.App.4th 292, 312 (“where the
plaintiff chooses to amend, any error in the sustaining
of the demurrer is ordinarily waived”); Miletak v. All
State Ins. Co. (N.D. Cal 2007) 2007 WL 7061350, *3-5
(stating that “under Ninth Circuit precedent, a plaintiff

App. 3
must re-allege even dismissed causes of action in order
to preserve them for appeal.”); But see, potentially CCP
§ 472c(b)(1) (noting that an appeal remains open “to a
cause of action within a complaint or cross-complaint
where the order did not sustain the demurrer as to the
entire complaint or cross-complaint,” without
explaining if this is on a per party basis, and without
explaining the impact of a demurrer sustained with
leave to amend as to all causes of action but one).
3.
Per the Court’s November 7, 2017 Order, this
amendment expressly adds a cause of action against
Adecco with respect to its liability for the harassment
release that Adecco requires its employees working at
Google to sign.
INTRODUCTION AS TO GOOGLE
4.
Google’s motto is “don’t be evil.” Google’s
illegal confidentiality agreements,
policies, and
practices fail this test.
5.
As a condition of employment, Defendants
Google, Inc. and Alphabet, Inc. (collectively “Google”
unless the context clearly indicates otherwise) require
all of their current and former employees, including
supervisors, managers and contingent workers
(collectively “Googlers”), to comply with illegal
confidentiality agreements, policies, guidelines, and
practices. These illegal policies and agreements restrict
the Googlers’ right to speak, right to work, and right to
whistle blow. The policies prohibit Googlers from
speaking plainly – even internally – about illegal
conduct or dangerous product defects, because such
statements might one day be subject to discovery in

App. 4
litigation or sought by the government. The policies
prohibit Googlers from telling a potential employer how
much money they make, or what work they performed,
when searching for a different job. The policies prohibit
Googlers from using or disclosing all of their skills,
knowledge, acquaintances, and their overall experience
at Google when working for a new employer. The
policies prohibit Googlers from speaking to the
government, attorneys, or the press about wrongdoing
at Google. The policies even prohibit Googlers from
speaking to their spouse or friends about whether they
think their boss could do a better job.
6.
Google’s unlawful confidentiality policies are
contrary to the California Labor Code, contrary to
public policy, and contrary to the interests of the State
of California. The unnecessary and inappropriate
breadth of the policies are intended to control Google’s
former and current employees, limit competition,
infringe on constitutional rights, and prevent the
disclosure and reporting of misconduct. The policies are
wrong and illegal.
7.
This case does not concern Google’s trade
secrets, consumer privacy, or information that should
not be disclosed under the law (such as material
non-public information under the securities laws). This
case instead concerns Google’s use of confidentiality
and other agreements and policies for illegal and
improper purposes. Google defines essentially
everything as “confidential information.” However, a
publicly-traded company with Google’s reach, power,
and close ties to the federal government cannot be
permitted to declare to its workforce that everything

App. 5
it does and everything that happens – from the location
of a water cooler to serious violations of the law – is
“confidential” upon pain of termination and the threat
of ruinous litigation.
INTRODUCTION AS TO ADECCO
8.
Defendant Adecco is a staffing firm with
thousands of temporary employees that it provides to
California-based clients as “contingent workers.” In
legal parlance, Adecco is the “primary employer” of
these employees, and Adecco’s clients are the
“secondary employers” of these employees. One of
Adecco’s clients is Google.
9.
Adecco requires its temporary employees
throughout California to agree to a confidentiality
agreement, commitment sheet, handbook, policies, and
practices that violate the California Labor Code.
Adecco requires its temporary employees, throughout
California, to abide by these illegal agreements,
policies and practices during their employment and
forever after.
10.

This is against the law.
PARTIES
Plaintiffs

11.
John Doe resides in San Francisco. From
July 2014 to April 2016, Doe worked as an “L5” Product
Manager for Google at one of Alphabet’s “other bets”
companies called Nest. Even then, he was a high-level
employee, only three steps removed from Alphabet
CEO Larry Page.

App. 6
12.
In April 2016, Doe was unceremoniously
terminated from Google after being falsely accused of
disclosing certain memes concerning Nest working
conditions to the press. He did not.
13.
Doe uses a pseudonym because he should not
be required to self-publish his name, which would then
be tied to Google’s defamatory statements about him,
in order to enforce rights under the Labor Code.
Moreover, as the allegations set forth below make
clear, Google is extraordinary intolerant of individuals
who disclose information about working conditions
(which this lawsuit does), and Doe rightfully fears
retaliation.
14.
Doe, as an L5 Product Manager, was a
supervisory and/or managerial employee of Google
outside the coverage of the National Labor Relations
Act. Google contends that Doe, as an L5 Product
Manager, was a supervisory/managerial employee, and
it is judicially estopped from claiming otherwise.
Moreover, the General Counsel of the NLRB concluded
that Doe – as an L5 Product Manager -- “possesses
supervisory authority to promote and that he has
effectively promoted an employee with the use of
independent judgment,” and that he “formulates and
effectuates the Employer’s policies regarding the
production of its products and in so doing he exercises
discretion in the interests of the Employer.” The
General Counsel’s final decision in this regard was
made on behalf of the Board. It thus extinguishes the
Board’s primary (as opposed to exclusive) jurisdiction
over the circumstances of Doe’s termination as an L5
Product Manager.

App. 7
15.
Regardless, as an L5 Product Manager, Doe
was inarguably a managerial/supervisory employee of
Google outside the protection of the National Labor
Relations Act.
16.
Perhaps more importantly, in June 2016,
Google reinstated Doe and promoted him to the
previously-promised position of an L6 Product
Manager. He thus became an even higher-level and
more important employee of Google. Among other
things, Google describes the L6 Product Manager role
thus:
[L6 Product Manager] owns a coherent portfolio
of projects and is accountable for the entire
product life cycle and identifying new areas of
investment (new projects) for the product.
Product decisions are highly complex and have
long-term strategic impact on the overall
Product Area, affecting all Customer’
constituents.
[L6 Product Manager] is the entrepreneurial
negotiator for their team. They can identify,
negotiate, and secure resources needed for a
plan they define. They understand the priorities
of their extended team (i.e., their Product/PA)
and how to operate effectively within them. They
proactively propose trade-offs in resourcing or
scope and identify ways for disparate teams to
work together to achieve a common goal.
[L6 Product Manager] regularly identifies new
product opportunities and is highly adept at
building consensus for and support of those
ideas. They are a highly effective and respected

App. 8
decision maker on their project portfolio,
recognized as a product expert in that area. PM
is skilled at working the whole team through
complex and controversial decisions quickly but
thoughtfully to ensure the right decision is made
and the whole team is supportive of and
motivated towards that outcome.
17.
Doe remains employed by Google as an L6
Product Manager. It is inarguable that from June 2016
to the present (if not before), Doe was a managerial
and/or supervisory employee of Google outside the
coverage of the National Labor Relations Act. Among
other things, he is inarguably high in the managerial
structure, he is aligned with management, he
formulates and effectuates Google’s policies regarding
the production of its products, and he exercises
significant discretion. He was and remains subject to
the agreements, policies, and practices of Google at
issue in this litigation.
18.
Doe is an “aggrieved employee” under PAGA,
which applies to employees, as well as to supervisors
and managers outside the coverage of the NLRA.
19.
David Gudeman resides in South San
Francisco. From November 2013 to December 2016
Gudeman worked for Google as a software engineer. In
early December 2016, Google terminated Gudeman’s
employment, stating that he was “unable to meet
expectations for a Software Engineer III.” Gudeman
disagrees with this claim. Gudeman was not
terminated for conduct that is arguably protected or
prohibited by the National Labor Relations Act.
Gudeman was also not arguably terminated as a

App. 9
consequence of, or in connection with, a labor dispute.
20.
Gudeman seeks to write a book about Google.
However, as a former employee, he remains subject to
Google’s unlawful confidentiality agreement as well as
its unlawful policies and practices (which are
incorporated by reference into the confidentiality
agreement).
21.
Gudeman has no expectation of ever working
for Google or Alphabet again.
22.
Gudeman is an “aggrieved employee” under
PAGA. As a former employee who was not terminated
in connection with a labor dispute or because of an
unfair labor practice, he is inarguably outside the
coverage of the NLRA.
23.
Paola Correa resides in San Francisco.
Correa was directly employed by Google in 2013 and
then again in 2014 as an intern. As part of her
termination from Google on those occasions, Google
required Correa to sign an “exit certificate” (which is
discussed below). On both occasions, Correa separated
from Google voluntarily because the internship had
ended. Correa did not separate from Google on these
occasions because of conduct that is arguably protected
or prohibited by the National Labor Relations Act.
Correa was not arguably separated from Google on
these occasions as a consequence of, or in connection
with, a labor dispute.
24.
In August 2015 Correa began work for Adecco
and was assigned to work at Google as a Sales
Coordinator and then Inside Sales Specialist. Correa

App. 10
was supervised and directed by both Google and Adecco
during this time frame, both of whom acted as her joint
employers. On or around July 7, 2016, Google and
Adecco required Correa to sign Google’s standard
confidentiality agreement for contingent workers
entitled: “Confidential Information and Invention
Assignment Agreement for Non-Employee Workers.”
This confidentiality agreement is similar to that which
Google requires its full-time employees to sign. This
agreement also contains the “harassment release”
discussed below.
25.
Google and Adecco concealed the existence of
the July 7, 2016 confidentiality agreement from
Plaintiffs and only produced it to Plaintiffs’ counsel on
October 5, 2017.
26.
In December 2016, Adecco and Google
terminated Correa. Among other things, Google and
Adecco terminated Correa because she is a Latina
woman. Defendants also stated it was terminating her
employment because she had informed someone
outside of Google that she worked for Google (which
she did) and for disclosing so-called “confidential
information” (which was not confidential) to someone
outside of Google. Google and/or Adecco did not
terminate the white men who engaged in similar
conduct.
27.
Since her termination, Adecco has steadfastly
refused to state why, exactly, Correa was terminated.
It refuses to identify who decided to terminate her. The
only written document produced by Adecco or Google
concerning Correa’s termination simply states Correa
was “not a good fit.”

App. 11
28.
Despite Correa’s discovery requests, Adecco
refuses to produce documents concerning Correa’s
termination.
29.
Despite Plaintiffs’ Labor Code and discovery
requests, Google refuses to produce documents
concerning Correa’s December 2016 termination,
claiming all such documents are “privileged.” Google
has not produced a privilege log.
30.
Correa was not terminated for conduct that
was arguably protected or prohibited by the National
Labor Relations Act. Correa was not arguably
terminated as a consequence of, or in connection with,
a labor dispute.
31.
Upon her termination in December 2016,
Adecco required Correa to sign an “exit certificate.” On
information and belief (because this writing has been
withheld by Defendants), this exit certificate required
Correa to continue to abide by Adecco’s and potentially
Google’s confidentiality agreements, policies, and
practices.
32.
Correa has no expectation of ever working for
Google, Alphabet, or Adecco again. Among other things,
Google and Alphabet refuse to rehire her ever again.
33.
Correa is an “aggrieved employee” under
PAGA. As a former employee who was not terminated
in connection with a labor dispute or because of an
unfair labor practice, she is inarguably outside the
coverage of the NLRA with respect to Defendants.

App. 12
Google and Alphabet
34.
Defendant Google, Inc. is headquartered in
Silicon Valley. It has offices in San Francisco. Google
directly employs, at any given time, approximately
87,000 employees, including managers and supervisors
undisputedly outside the jurisdiction of the NLRA.
Google also employs an unknown number of contingent
workers. On information and belief, there are
thousands more former employees who continue to be
subject to Google’s unlawful agreements and policies.
All of these individuals are aggrieved employees under
PAGA.
35.
Defendant Alphabet, Inc. is a publicly-traded
corporation headquartered in Silicon Valley. It was
founded in 2015 by the founders of Google as a holding
company for Google and other companies owned by
Alphabet. Alphabet and Google share directors and
executives. They also share property. They share
procedures and policies. On information and belief,
Google and Alphabet exercise common control of labor
relations.
36.
Google and Alphabet constitute either joint
employers of all Googlers, or they constitute a single
employer or integrated enterprise. Both entities are
liable for each of the PAGA violations alleged in this
Fourth Amended Complaint (except as to those that are
alleged solely against Adecco). Google and Alphabet are
also the employers of its contingent workers, including
those that are employed by Adecco.

App. 13
Adecco
37.
Adecco Group North America and Adecco
USA Inc. (collectively “Adecco”) are headquartered in
Florida. Both employ contingent workers like Correa
throughout California.
SUMMARY OF LEGAL VIOLATIONS
38.
First, it is an unlawful business practice in
California to require employees to sign, as a condition
of employment, a Confidentiality Agreement or policy
that restrains trade. California Business & Professions
Code § 17200, California Business & Professions Code
§ 16600, and the Cartwright Act. Google and Adecco’s
“confidentiality agreements” unlawfully restrain trade
because they prevent employees from effectively
seeking new work. If they do find new work, these
agreements and policies prohibit former employees
from using or disclosing information that is not
confidential as a matter of law. Among other things,
the agreements and policies prohibits employees from
using all of the skills, knowledge, acquaintances, and
the overall experience they obtained at Google or
Adecco in their new employment. The agreements and
policies also restrain the right of former employees to
recruit their former colleagues using information that
is not confidential as a matter of law.
39.
Indeed, the Adecco Confidentiality
Agreement and policies go even further. They prevent
employees from working for an Adecco client without
Adecco’s permission, approaching an Adecco client
about work, or contacting an Adecco client following
the end of an assignment.

App. 14
40.
Second, California Labor Code § 96(k)
expressly permits employees to engage in lawful
conduct during non-work hours away from their
employer’s premises. This lawful conduct includes the
exercise of constitutional rights such as freedom of
speech and freedom to work. California Labor Code
§ 98.6(b) prohibits an employer from threatening to
discharge employees who exercise their constitutional
rights and/or engages in lawful conduct during nonwork hours.
41.
Google and Adecco threaten to discharge
employees who exercise their constitutional rights by
providing information to the press or otherwise
exercising their freedom of speech rights under the
California and United States Constitutions, as well as
their rights under the Labor Code. Google and Adecco
also threaten to discharge employees who disclose
“confidential information” to prospective employers in
furtherance of their right to economic liberty under the
California and United States Constitutions. This is a
violation of Labor Code § 98.6(b).
42.
Third, in any contract or agreement that
governs the use of trade secrets or confidential
information, an employer must give employees notice
that:
a. An individual shall not be held
criminally or civilly liable under any
Federal or State trade secret law for
disclosure of a trade secret that is
made in confidence to a Federal, State,
or local government official . . . or to
an attorney . . . for the purpose of

App. 15
reporting or investigating a suspected
violation of the law. And
b. The use and disclosure of a trade
secret to an attorney as it relates an
anti-retaliation lawsuit is permitted.
The trade secret may also be filed with
a court in certain circumstances.
Federal Defend Trade Secrets Act § 7(b).
43.
Google and Adecco do not include the
required notices in their confidentiality agreements
with employees. Instead, they inform employees that
they cannot disclose “confidential information” to
anyone – even to an attorney or the government. This
is a violation of the Federal Defend Trade Secrets Act
and California’s Unfair Competition Law. Cal.
Business & Professions Code § 17200 et seq.
44.
Fourth, Rule 21F-17 of the Securities and
Exchange Commission provides that “no person may
take any action to impede an individual from
communicating directly with the Commission staff
about a possible securities law violation, including
enforcing or threatening to enforce a confidentiality
agreement . . . . with respect to such communications.”
Defendants’ confidentiality agreements and policies
unlawfully prohibit employees from reporting possible
securities law violations to the SEC. This violates SEC
Rule 21F-17 and California’s Unfair Competition Law.
Cal. Business & Professions Code § 17200 et seq.
45.
Fifth, it is against public policy to prohibit
current or former employees from providing evidence
and information to an attorney representing

App. 16
shareholders about potential violations under the
securities laws, as well as to an attorney or the
government with respect to violations of state or
federal false claims acts. Google’s and Adecco’s
confidentiality agreements and confidentiality policies
do just that. This violates California’s Unfair
Competition Law. Business & Professions Code § 17200
et seq.
46.
Sixth, California Labor Code §§ 232(a) and
(b) prohibit employers from requiring, as a condition of
employment, that an employee refrain from disclosing
the amount of his or her wages. Google’s and Adecco’s
confidentiality policies (including Adecco’s employee
handbook) prohibit employees from disclosing the
amount of their wages. This is a violation of Labor
Code §§ 232(a) and (b). In addition to the policies,
Adecco’s confidentiality agreement also prohibits
employees from disclosing information about and the
amount of their wages.
47.
Seventh, California Labor Code § 1197.5(k)
(formerly Labor Code § 1197.5(j)) states that “an
employer shall not prohibit an employee from
disclosing the employee’s own wages, discussing the
wages of others, inquiring about another’s wages, or
aiding or encouraging any other employee to exercise
his or her rights under this section.” Google’s and
Adecco’s confidentiality agreements and policies
prohibit employees from engaging in any of these acts.
This is a violation of Labor Code § 1197.5(j)/(k).
48.
Eighth, California Labor Code § 232.5(a) and
(b) prohibits employers from requiring, as a condition
of employment, that an employee refrain from

App. 17
disclosing information about the employer’s working
conditions. Google and Adecco, through their unlawful
confidentiality policies (and, where applicable,
agreements), prohibit employees from disclosing this
information. Indeed, Google and Adecco expressly
declare that employment policies and agreements
which concern working conditions are “confidential.”
This is a violation of Labor Code § 232.5.
49.
Ninth, California Labor Code § 1102.5(a)
states that an employer “shall not make, adopt, or
enforce any rule, regulation or policy preventing an
employee from disclosing information to a government
or law enforcement agency if the employee has
reasonable cause to believe that the information
discloses a violation [of the law].” Google’s and Adecco’s
requirement that employees sign illegal confidentiality
agreements violate this provision. Google’s and
Adecco’s unlawful confidentiality policies (including the
Adecco handbook) also prohibit disclosure of
information to the government or a law enforcement
agency of potential violations of the law. The
agreements and policies thus violate Labor Code
§ 1102.5(a).
50.
Tenth, California Labor Code § 1102.5(a)
also states that an employer shall not make, adopt, or
enforce any policy that prevents an employee from
disclosing information to a person with authority over
the employee, or to an employee who has the authority
to investigate, discover, or correct the violation of law,
if the employee has reasonable cause to believe that the
information discloses a violation of the law.
Defendants’ unlawful policies restrict employees from

App. 18
reporting violations of the law internally. Googlers are
prohibited from communicating to other Googlers that
a Google product may be dangerous or that Google’s
conduct is illegal. This is another violation of Labor
Code § 1102.5(a).
51.
Eleventh, California law prohibits requiring
employees, as a condition of employment, to waive
rights or claims. In the relevant time period, Google
required all Googlers to agree, as a condition of
employment, to waive their statutory rights to bring
discrimination, harassment, and other claims. Adecco
requires all its employees to agree, as a condition of
employment, to waive their statutory rights and claims
with respect to their participation in “social events
and/or activities” and their use of a “GBike.” Adecco
also required its employees working at Google as
contingent workers to agree to waive their statutory
rights to bring discrimination, harassment, and other
claims by requiring them to sign the Google
harassment release.
FACTS
As to Google and Alphabet
Google’s Confidentiality Agreement
52.
On July 14, 2014, Google offered Doe a job. In
his offer letter, Google stated: “as an employee of
Google, it is likely that you will become knowledgeable
about confidential, trade secret, and/or proprietary
information related to the operations, products, and
services of Google and its clients. To protect the
interests of both Google and its clients, all employees
are required to read and sign the enclosed At-Will

App. 19
Employment, Confidential Information, and Invention
Assignment and Arbitration Agreement as a condition
of employment with Google.” (“The Confidentiality
Agreement”).
53.
On October 8, 2013 Google offered Gudeman
a job. Gudeman’s offer letter contained the same
language as Doe’s with respect to the obligation to sign
the Confidentiality Agreement.
54.
In the spring of 2013, and again on February
11, 2014, Google offered Correa a job. Correa’s offer
letters contained the same language as Doe’s with
respect to the obligation to sign the Confidentiality
Agreement. Correa was also required to sign the
confidentiality agreement for temporary workers in or
around July 2016.
55.
Like all Googlers, Plaintiffs signed the
Confidentiality Agreement. The Agreement defines
“confidential information” to mean, “without limitation,
any information in any form that relates to Google or
Google’s business that is not generally known,”
including “employee data.” (Emphasis added).
56.
The Agreement further requires Googlers,
both during and after their employment, to “hold in
strictest confidence and take all reasonable precautions
to prevent any unauthorized use or disclosure of Google
Confidential Information” and to “not (i) use Google
information for any purpose other than for the benefit
of Google in the scope of [the Googler’s] employment, or
(ii) disclose Google ‘confidential information’ to any
third party without prior authorization.” Moreover, the
Agreement requires Googlers to agree that “all Google

App. 20
Confidential Information that [they] use or generate in
connection with [their] employment belongs to Google
(or third parties identified by Google).”
57.
Google also makes clear that the failure to
abide by its Confidentiality Agreement can lead to
draconian results. Googlers must agree, as a condition
of their employment, that any “unauthorized use or
disclosure of Google ‘Confidential Information’ during
my employment or after my employment may lead to
disciplinary action, up to and including termination
and/or legal action.”
58.
Google also prohibits employees from
delivering to others information that does not even fall
within Google’s overly-broad definition of “confidential
information.” Upon termination, Googlers must agree
to “not keep, recreate, or deliver to any other person or
entity any documents and materials pertaining to
[their] work at Google” (whether it is “confidential”
under Google’s overbroad definition or not).
59.
The Confidentiality Agreement contains no
geographic or time limitation. Rather, it lasts forever,
and applies even after Googlers end their employment
with Google.
60.
The Agreement also requires Googlers to
abide by Google’s ‘Confidential’ Code of Conduct and all
other Google’s policies. Separately, Google also requires
Googlers to agree, in writing, to its policies and
practices throughout the course of their employment.

App. 21
Google’s Policies, Guidelines and Practices
61.
In addition, Google and Adecco’s policies,
guidelines, practices and enforcement conclusively
establish that, according to Google, disclosure of any
information pertaining to Google is never warranted
and not permitted by law.
Google’s “Confidential” Code of Conduct Policy
62.
Google maintains a Code of Conduct policy
that is for “internal purposes only.” This “confidential’
Code of Conduct policy states that “all documents, site
pages, and resources that are linked here as well as the
document as a whole are considered internal and
confidential.” Google’s “confidential” Code of Conduct
policy applies to all Googlers. Google states that the
failure to follow the “confidential” Code of Conduct
policy “can result in disciplinary action, including
termination of employment.”
63.
The “confidential” Code of Conduct policy
prohibits Googlers from disclosing “confidential
information” [which means everything at Google]
without authorization.” The internal policy goes further
and states that “it’s also a bad idea to post your
opinions or information about Google on the Internet,
even if not confidential, unless you’re authorized to do
so as part of your job. . . . And never discuss the
company with the press unless you’ve been explicitly
authorized to do so by Corporate Communications.”
64.
The “confidential” Code of Conduct policy
concludes by stating that Google expects “all Googlers
to be guided by both the letter and the spirit of this
Code.”

App. 22
Data Classification Guidelines
65.
Plaintiffs, like all Googlers, are also subject
to Google’s Data Classification Guidelines. The
Guidelines categorize Google information into three
categories: “Need-to-Know,” “Confidential,” and
“Public.” A “Data Owner” is responsible for categorizing
the information, and, at Google, “no information at
Google is public by default.”
66.
Specifically, the Data Classification
Guidelines state: “Everything we work on at Google –
all the data and information we create, details of what
we do, how we operate, and our plans for the future –
is, at a minimum, Confidential. . . . Even if some
elements of the information are known outside of
Google or have been speculated about in public, it is
considered confidential until the Data Owner explicitly
makes it public.” Accordingly, even public information
is “confidential” at Google. This information includes
information about a Googler’s compensation, his or her
performance, and the persons with whom the Googler
works (i.e., “team information”).
Employee Communication Policy
67.
In addition to requiring Googlers to keep all
information about Google “confidential,” Google places
additional onerous restrictions on Googlers’ freedom to
speak.
68.
Google’s “Employee Communication Policy”
states that if a Googler shares “confidential
information” outside the company, they “may be
terminated, held personally liable, or subject to
prosecution.” The policy goes on to state that – “even if

App. 23
you didn’t intend your personal observation to be
public, if you violate your confidentiality obligations by
disclosing non-public information outside of Google, you
may be subject to legal action.”
69.
The Employee Communication Policy states
that the vast majority of Googlers cannot speak about
Google at all. Rather, “only authorized Googlers are
permitted to talk about the company with the press,
members of the investment community, partners, or
anyone else outside Google.” Moreover, if an authorized
Googler does mention Google outside of work, the
Googler is permitted only to cite information from
Google’s “corporate blogs or social media accounts.”
Authorized Googlers are also permitted to repeat
“approved talking points and metrics at go/
keymessages.”
70.
Google not only prohibits employees from
speaking about Google, it also prohibits employees from
writing creative fiction. Among other things, Google’s
Employee Communication Policy prohibits employees
from writing “a novel about someone working at a tech
company in Silicon Valley” unless Google gives prior
approval to both the book idea and the final draft.
71.
In addition, the Employee Communication
Policy prohibits Googlers from speaking with the press
“without prior clearance from Google’s communications
team.” Google’s policy also is to prohibit Googlers from
speaking with “any member of the investment
community about the company.” Because Google is a
publicly-traded company, members of the “investment
community” include countless individuals. For

App. 24
example, anyone with a 401(k) plan is potentially a
“member of the investment community.”
72.
Google’s “Communications and Disclosure
Policy” eliminates any ambiguity that might exist with
respect to a Googler’s ability to speak with the press or
the general public. This policy states: “Our employees
and members of our Board of Directors (other than our
authorized spokespersons) should not respond, under
any circumstances, to inquiries from the investment
community [i.e., countless individuals] or the media
unless specifically authorized to do so by an authorized
spokesperson.” Moreover, under Google’s “Appropriate
Conduct” policy, any speech that potentially
“undermines the reputation of Google” can lead to
termination of employment.
Google’s Efforts to Prevent Whistleblowing
73.
Google engages in a concerted effort to
prevent both internal and external whistleblowing,
even when employees have a reasonable basis for
believing that Google is violating the law. Specifically,
Google restricts what Googlers say internally in order
to conceal potentially illegal conduct. It instructs
employees in its training programs to do the following:
“Don’t send an e-mail that says ‘I think we broke the
law’ or ‘I think we violated this contract.’” The training
program also advises employees that they should not
be candid when speaking with Google’s attorneys about
dangerous products or violations of the law. The
program advises Googlers that some jurisdictions do
not recognize the attorney-client privilege, and “[i]nside
the U.S., government agencies often pressure
companies to waive the privilege.” Google advises

App. 25
Googlers that they “should write e-mails with the
assumption that somebody outside of Google, who may
not be friendly to us, will get to read it.”
74.
Indeed, a second training program entitled
“You Said What?” specifically states that Googlers
must “avoid communications that conclude, or appear
to conclude, that Google or Googlers are acting
‘illegally’ or ‘negligently,’ have ‘violated the law,’ should
or would be ‘liable’ for anything, or otherwise convey
legal meaning.” It other words, Googlers are prohibited
from communicating concerns about illegal conduct
within Google.
75.
As an example, in Google’s “You Said What?”
training program, Google instructs Googlers to
suppress information about dangerous products. Google
also specifically advises Googlers to delete paragraphs
from emails that suggest there are serious flaws in
Google technology, that Google may be sued, or that
there may be product liability damages. Googlers are
also instructed to delete written communications that
suggest Google might have breached any contracts.
Policies for Former Employees
76.
Google’s unlawful policies even apply to
ex-Googlers. As stated in Google’s “Prepare to Leave
Google” policy, Googlers “remain under the obligations
of the Confidentiality Agreement that [they] signed
when [they] joined Google. It is important that you do
not retain or disclose any confidential or proprietary
Google information including, but not limited to,
information related to [Google’s] products, business

App. 26
plans, customer lists, financial information, and
information related to [the Googler’s] work product.”
77.
This policy is further enforced by the “Exit
Certification” that Google requires Googlers to sign
upon termination. It states that “by signing this note,
you further agree that you have followed the terms of
the [Confidentiality Agreement]. . . . You agree that in
compliance with the Agreement, you will adhere to
your obligations to the Company, including those
contained in Section 2 (Confidential Information).”
Google Vigorously Enforces Its Illegal
Confidentiality Policies
78.
Google enforces its unlawful policies through,
among other things, employee training, internal
investigations, a spying program, self-confessions,
written and oral warnings, and the threat of
termination and litigation.
Employee Training
79.
In addition to the training programs set forth
above, another training program states: “Let’s be clear:
Depending on the circumstances, [violating the Code of
Conduct] could have significant consequences for you
up to, and including, losing your job.”
80.
This program also states: “We share a lot of
information at Google. You should treat all
information at Google as confidential unless you
know that it has been approved for public disclosure.”
81.
This lesson is emphasized in yet another
training program that states: “Google’s confidential

App. 27
information should never be shared outside the
Company without proper authorization.”
Stop Leaks
82.
Another way Google enforces its illegal
confidentiality policies is through its “Global
Investigations Team,” which is led by Brian Katz. This
team’s primary area of focus is “information security
issues when a Google employee is suspected of being
involved.” This includes “unauthorized disclosure of
‘confidential information’ or intellectual property
(‘leaks’).” The Global Investigations Team conducts
“interviews with the subjects of investigations, as well
as the victims and witnesses.” It “provides
recommendations regarding discipline for these
infractions when requested.” The Global Investigations
Team also relies on “volunteers” to report other
employees who might have disclosed any information
about Google.
83.
Google’s Investigations Team is in charge of
“Stopleaks,” Google’s company-wide effort to prevent
the disclosure of any information about Google and
enforce its illegal policies. According to Google,
“non-malicious leaks happen when an employee shares
information with an external person they trusted, and
other times internal and confidential information is
accidentally marked public. If you know you were
inadvertently responsible for a leak, let us know
quickly by emailing stopleaks@. We understand that
mistakes happen!”
84.
The Stopleaks program is managed through
an internal website that includes a Chrome extension

App. 28
to facilitate the reporting of alleged “leaks” on the
internet. Employees are required under Google policies
to report “leaks” to Stopleaks. A referenced above, a
violation of Google’s policies can result in termination.
85.
Under its “Stopleaks” program, after a
Googler submits a leak report to the Stopleaks site,
Google’s “team of Stopleaks super sleuths investigate
every leak. . . . The Stopleaks team researches the
project/product that was leaked and aims to determine
the leak’s origin. From here, [the Stopleaks team] often
liaise with other cross-functional Google teams that
may contribute additional context to the investigation.”
86.
In addition to “leaks,” Google also asks
Googlers to file “suspicious activity reports,” which
Google states can include “strange things you observe
or strange things that happen to you – like someone
asking you really detailed questions about your project
or job.”
87.
The purpose of Google’s “Stopleaks” program
is to deter employees from asking questions (even of
one another), or disclosing any information about
Google in violation of their constitutional and statutory
rights.
Other Communications and Threats of
Termination
88.
Google also enforces its illegal confidentiality
policies with dire warnings and the threat of
termination. A Google co-founder has assured Googlers
in all hands meetings that anyone who “leaks”
“confidential information” will soon be an ex-Googler.

App. 29
Google’s attorneys and executives advise Googlers by
email and orally that they will be terminated if they
disclose “confidential information.” Brian Katz assures
Googlers by email and otherwise to “[b]e aware of the
company information you share and with whom you
share it. If you’re considering sharing “confidential
information” to a reporter – or to anyone externally –
for the love of all that’s Googley, please reconsider! Not
only could it cost you your job, but it also betrays the
values that makes us a community.”
89.
As detailed above, the alleged “values” that
Katz and the Investigations Team contend make
Google a community violate California law and infringe
on Googlers’ legal rights.
Google’s Ineffective “Savings” Provisions
90.
Google – fully aware of the illegality of its
Agreement and policies – attempts to limit its liability
through meaningless “savings” clauses that purport to
create partial exceptions to the blanket prohibitions.
91.
For example, contrary to its “confidential”
Code of Conduct Policy, Google’s “Employee
Communication Policy” states that “[n]othing in this or
other Google policies is intended to limit employees’
rights to discuss with other employees the terms,
wages, and working conditions of their employment, or
communicate with a government agency regarding
violations of the law, as warranted and as protected by
the applicable law.” Regardless of Google’s alleged
“intent,” the plain language of the policies is to the
contrary. Also, because this savings clause applies only
to communications within Google, it is crystal clear

App. 30
that Google affirmatively intends to prohibit
communications about wages and working conditions
with those outside Google. Moreover, this savings
clause extends only to communications that are both
“warranted” and “protected by applicable law.” Despite
this alleged “exception,” Google’s policies, training
programs, and enforcement mechanisms all instruct
employees that the disclosure of “confidential
information” is never warranted. These policies,
training programs, and enforcement mechanisms also
make clear that – at Google – disclosure or use of
“confidential information” is not permitted by law.
Rather, any “unauthorized” disclosure is prohibited by
law, and, as Google repeatedly explains to its
workforce, can result in legal action, prosecution, and
personal liability.
92.
In September 2016, in apparent response to
Plaintiffs letter to the Labor Workforce and
Development Agency concerning Google’s violations,
and as a tacit admission that its Agreement and
policies are illegal, Google quietly made a small
amendment to an additional policy in which it
purported to broaden Googlers’ right to discuss pay,
hours, or other terms of employment and to
communicate with government agencies regarding
violations of the law. Google did not inform Googlers of
this amendment.
93.
On information and belief, Google continues
to threaten employees with discharge for exercising
their rights to freedom of expression and freedom to
work. Google continues to prohibit Googlers from
speaking with lawyers or the press. Google continues to

App. 31
insist that Googlers refrain from plainly
communicating with others that Google is violating the
law or endangering consumers. Google continues to
unlawfully restrain trade through its overbroad
Confidentiality Agreement and policies.
The Secret Releases
The Harassment Release
94.
In addition, and during the time frames
relevant here, Google required all Googlers to sign an
“Employee and Temporary Workers Adult Content
Liability Release.” (The “Harassment Release.”) Doe,
Gudeman, and Correa were all required to sign, and
did sign, the Harassment Release. Both Google and
Adecco required Correa to sign the harassment release
through the July 2016 confidentiality agreement
referenced above.
95.
Consistent with Google’s confidentiality
agreements and policies, Google declared the
Harassment Release a secret, stating in italicized
letters near the top of the agreement that it was:
“Confidential: For Google Employees’ and Temporary
Workers on Assignment at Google Only.”
96.
The Harassment Release requires Googlers to
agree that, during the course of their employment,
they “may be exposed to ‘sensitive adult content,’ such
as text, descriptions, graphics, pictures, and/or files
commonly referred to as being ‘adult’ content.”
97.
The Harassment Release then requires all
Googlers to “release Google Inc. and its subsidiaries
and affiliates from any and all liability associated with

App. 32
having this material present in the work environment,
including but not limited to claims of harassment,
hostile work environment, and discrimination.”
98.
In other words, and during the relevant time
frame, Google secretly required all Googlers to agree to
preemptively release it, its subsidiaries, and its
affiliates, from “any and all liability” that may in any
way be ‘associated with’ the existence of sexual texts,
emails, descriptions, graphics, pictures, or files in
Google’s workplace.
As to Adecco
Adecco’s Confidentiality and Non-Compete
Agreement
99.
In or around August 2015, Adecco offered
Correa employment. She was assigned to work for
Google, an Adecco client.
100. As a condition of her employment, Adecco
required Correa to sign an “Employee
Acknowledgement and Confidentiality and
Non-Disclosure Agreement (“Adecco Agreement”). On
information and belief, Adecco requires all employees
throughout California to sign the Adecco Agreement.
101. The Adecco Agreement declares essentially
everything related to Correa’s employment with Adecco
“confidential.” Under the Agreement, so called
“confidential information” is “deemed to include but is
not limited to information in any format . . . which
Adecco and/or Client have not previously made
available to the public.” The Adecco Agreement does

App. 33
not contain the notice required by the Defend Trade
Secrets Act.
102. The Adecco Agreement further requires
employees to agree that they “cannot disseminate or
disclose to any third party, or use for Employee’s own
benefit, any Confidential Information relating to the
products, business, or affairs of Adecco or of Client
which is in any way acquired during or by reason of
Employee’s employment with Client.”
103. Adecco’s Agreement also contains an express
non-compete provision. It requires employees to agree
that “he/she is not to accept any position with any
Client or other entity where he/she is performing
services as an Adecco employee without the prior
written consent of Adecco.”
104. The Adecco Agreement further requires its
contingent workers to comply with the policies and
procedures of Adecco and its clients during the course
of their employment and forever after it. It states:
“Employee agrees that his/her obligations hereunder
shall continue beyond the termination of an
assignment with a Client and/or termination of
employment with Adecco. . . .”
105. Both Adecco and its clients have updated
their policies within the relevant limitations periods,
and have thus updated Correa’s agreement.
106. The Adecco Agreement
geographic or time limitation.

contains

no

App. 34
Adecco Commitment Sheet
107. Adecco also requires its temporary employees
throughout California, including Correa, to sign a
“Commitment Sheet.” Correa signed this Commitment
Sheet in August 2015.
108. This Commitment Sheet requires Adecco
temporary employees to “abide by the policies and
procedures contained in the Adecco Employee
Handbook.
109. The Commitment Sheet also contains a
non-disparagement clause that states: “During or after
my employment with Adecco or any Client, I will not
make any false or defamatory statements about Adecco
or its Clients.”
110. The Commitment Sheet also states that
[f]ailure to comply with these and other company
policies and procedures may result in disciplinary
action up to and including termination.”
Adecco’s Employee Handbook & Other Policies
111. Adecco also requires its temporary employees
to maintain absolute confidentiality through its
employee handbook.
112. For example, Adecco’s employee handbook –
which sets forth working conditions and wage
information – is a secret. it states that “the information
contained in this Employee Handbook is confidential
and proprietary to Adecco. The information is for
internal use only and may not be distributed outside of
Adecco.”

App. 35
113. Adecco’s handbook also prohibits its
employees from revealing that they work for an Adecco
client on their social media profiles. According to
Adecco, this includes activity like:
a. Revealing that you work for an Adecco
client (such as on a LinkedIn page).
b. Identifying yourself as an employee of an
Adecco client (even though you are).
updates.

c. Tagging or referencing clients in status
d. “Blogging” about clients (in any way).

114. In addition, Adecco prohibits its employees
from sharing any so-called “sensitive information”
related to work. This includes any “internal
communications” or even the “identities of coworkers”
or “disagreements or arguments with others.”
115. The handbook also prohibits employees from
“approach[ing] a client about full time employment.”
Rather, if an Adecco temporary employee has an
interest in full time employment with a client, it must
“let [your] Adecco representative know.” Indeed, even
after they leave a client’s employ, Adecco’s temporary
employees “are prohibited from contacting Adecco’s
clients regarding the reasons for the assignment’s
completion.”
116. Finally, the handbook makes clear that the
failure to abide by Adecco or a client’s policies and
procedures – including Adecco’s “no contact policy” with

App. 36
respect to clients – may result in disciplinary action up
to and including termination.
The “Social Event Release”
117. Adecco also requires its employees to sign two
additional releases as a condition of working for
Google. Correa, as an Adecco employee, signed these
releases in August of 2015.
118. Adecco’s “Social Event Release” acknowledges
that Adecco employees “may be invited to attend social
events, activities, and/or functions hosted or promoted
by Adecco and/or its Clients (in this case Google). This
is true, and many of these events, activities, and
functions occurred at Google or close to Google.
Contingent workers are actively encouraged to
participate in these events, activities, and functions.
119. Adecco requires Adecco employees to
preemptively waive all rights they might have against
Adecco or Google for anything “resulting from, caused
by or arising out of participation in such social events,
activities, and/or functions.” Specifically, the release
states:
I hereby waive any and all legal and/or
equitable rights or claims that I may have
to bring legal action against Adecco
and/or its Clients for damages, costs,
expenses or any of them incurred on
account of any injury, illness, and/or
death resulting from, caused by or arising
out of participation in such social events,
activities, or functions. Further, I release
Adecco and/or its Clients from any and all

App. 37
claims, demands, actions, causes of
action, damages, liabilities, judgments,
costs, and expenses, including reasonable
attorney’s fees and court costs, of every
kind and nature whatsoever incurred by
me on account of any injury, illness
and/or death resulting from, caused by, or
arising out of participation in such social
events, activities and/or functions
whether caused by negligence or
otherwise.
120. In other words, if an Adecco employee is
harassed by her boss at a social event, she cannot bring
a claim. If she is injured at social event (whether
purposefully or otherwise), she cannot bring a claim.
“The GBike Release”
121. Finally, Google maintains on its campuses
bicycles for Googlers to use (i.e., “GBikes”). The purpose
of these bicycles is to permit Googlers to more
efficiently travel between buildings on Google
campuses in order to save time, thus allowing Googlers
to work more efficiently. These bikes are used in the
course and scope of employees’ employment within the
meaning of the workers compensation laws. For
example, in California, any injury that occurs on an
employer’s premises is presumed to arise during the
course and scope of an employee’s employment.
122. Adecco, however, using language identical to
that in its Social Events Waiver, requires its
Google-based employees to waive any rights they may
have to bring a claim arising from their use of a GBike.

App. 38
The Harassment Release
123. As detailed above, Adecco also requires its
employees working as contingent workers at Google to
sign a Google confidentiality agreement that also
contains the harassment release.
Concealment of Records
124. Plaintiffs’ counsel, before filing suit, and as
part of its ongoing investigation into this case,
requested that Google and Adecco produce the
following documents concerning Plaintiffs in
accordance with the Labor Code:
a. A copy of all documents identified in
Labor Code § 1198.5 (i.e., a copy of the personnel
records that the employer maintains relating to the
employee’s performance or to any grievance concerning
the employee).
b. A copy of records required to be produced
under Labor Code § 226(b) (i.e., a copy of an employees’
records “pertaining to their employment”).
c. A copy of all documents required to be
produced under Labor Code § 432 (i.e., “if an employee
or applicant signs any instrument relating to the
obtaining or holding of employment, he shall be given
a copy of the instrument upon request.”)
125. Plaintiffs’ counsel recently learned that
Plaintiffs Correa, Gudeman, and Doe are and were
required to sign a number of documents as a condition
of obtaining or holding employment with Google and
Adecco, whether as an applicant or otherwise.

App. 39
Employees are required to “e-sign” these documents on
a regular basis as part of training or the periodic
review of policies, procedures, or other materials. As
noted above, Google also requires its employees to sign
“exit certificates” upon leaving Google’s employ. Adecco
does as well, and required that Correa sign such a
document upon her termination.
126. Despite Plaintiffs’ requests in April 2016 (as
to Doe), December 13, 2016 (as to Gudeman), and
January 3, 2017 (as to Correa) for these records,
Defendants have not produced them. They have instead
concealed their existence.
127. Plaintiffs are actively seeking to obtain these
records now.
Administrative Exhaustion
128. Plaintiffs
have
exhausted
their
administrative remedies in accordance with Labor
Code § 2699.3 et seq. with respect to the below causes
of action. The letters to the LWDA (with appropriate
redactions to prevent the unnecessary self-publication
of Doe’ identity) were sent on May 17, 2016, June 14,
2016, December 19, 2016, January 31, 2017, February
14, 2017, and October 5, 2017. They are attached as
Exhibit 1. Plaintiffs have received no response from
the LWDA to this correspondence. Defendants agreed
to waive any administrative exhaustion requirement
with respect to the October 5, 2017 LWDA notice.
129. Google has sought to “cure,” pursuant to
Labor Code § 2699.3, one identified violation with
respect to its Harassment Release. Google’s proposed
cure is insufficient. Among other things, Google has not

App. 40
advised former Google employees that its secret
“Harassment Release” is not confidential and may be
disclosed in accordance with Labor Code §232.5. Adecco
has taken no steps to cure the secrecy of the
harassment release that it requires its employees
working at Google to sign.
***
130. Because Google and Adeeco require Googlers
to waive their right to seek class-wide relief with
respect to Defendants’ illegal conduct, the only effective
remedy to address this illegal conduct and achieve
compliance with the Labor Code is the aggressive and
full imposition of penalties under the Private Attorneys
General Act. Plaintiffs, on behalf of the State and all
Googlers, seeks the below PAGA penalties in full.
CAUSES OF ACTION
AS TO GOOGLE AND ALPHABET
First Cause of Action
PAGA (with reference to Labor Code § 432.5)
Illegal Restraint of Trade -- Post-Employment
(As to Defendants Google and Alphabet
(collectively Google))
131. Non-disclosure agreements and policies affect
the State of California’s interest in promoting
commercial competition via the free flow of
information. These agreements constitute a restraint
on trade.

App. 41
132. Google’s confidentiality agreements and
policies contain no geographic or time limitation.
133. As described above, Google requires
employees to agree, in writing, to confidentiality
agreements and confidentiality policies that unlawfully
restrain trade by prohibiting the use of information
that is not confidential as a matter of law. For example,
the confidentiality agreements purport to prevent
employees from using or disclosing all of the general
skills, knowledge, acquaintances, and the overall
experience they obtained at Google. The confidentiality
agreements also purports to prevent employees from
using or disclosing general business practices. The
confidentiality agreements also purport to prevent
employees from using or disclosing customer
information that is readily available to competitors
through normal competitive means. The confidentiality
agreements and policies prohibit employees from using
their knowledge of their own and other employees’
working conditions and wages for purposes of
competition, as permitted by Labor Code. The
confidentiality agreements and policies violate
California Business & Professions Code §§ 17200 et seq.
through application of California Business &
Professions Code § 16600 and the Cartwright Act.
134. Google knows or should know that their
confidentiality agreements and policies violate the law.
135. Accordingly, Google imposes a term and
condition of employment on all Googlers that they
know are prohibited by law in violation of Labor Code
§ 432.5.

App. 42
136. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code
§ 432.5 is one hundred dollars ($100) for each aggrieved
employee per period for the initial violation and two
hundred dollars ($200) for each aggrieved employee per
pay period for each subsequent violation.”
137. Plaintiffs seek from Google and Alphabet
separately, on behalf of themselves, the state of
California, and all aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.
Second Cause of Action
PAGA (with reference to Labor Code § 432.5)
Illegal Restraint of Trade - Mobility of
Employment
(As to Defendants Google and Alphabet
(collectively Google))
138. As described above, Google requires
employees to agree in writing to confidentiality
agreements and policies that unlawfully restrain trade
by prohibiting employees from speaking with
prospective employers about information that is not
confidential as a matter, about their work at Google,
and about their wages and working conditions. Google
also requires them to inform prospective employers of
Google’s restrictions on their employees’ freedom to
work. This is a violation of California Business &
Professions Code §§ 17200 et seq. (through application
of the Business & Professions Code § 16600 and the
Cartwright Act) and California Labor Code §§ 232,

App. 43
232.5 and 1197.5(j)/(k). Google knows or should know
that their confidentiality agreements and policies
violate the law.
139. Accordingly, Google imposes a term and
condition of employment on all Googlers that they
know are prohibited by law in violation of Labor Code
§ 432.5.
140. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code
§ 432.5 “is one hundred dollars ($100) for each
aggrieved employee per period for the initial violation
and two hundred dollars ($200) for each aggrieved
employee per pay period for each subsequent violation.”
141. Plaintiffs seek from Google and Alphabet
separately, on behalf of themselves, the State of
California, and all aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.
Third Cause of Action
PAGA (with reference to Labor Code § 432.5)
Illegal Prohibition on Whistleblowing –
Communications with Outside Attorneys
(As to Google and Alphabet (collectively
Google))
142. Google requires employees to agree in writing
to confidentiality agreements and confidentiality
policies that unlawfully prohibit employees from
disclosing to attorneys (whether representing an
individual Googler or a lawyer representing

App. 44
shareholders or investigating misconduct) potential
violations of the law. Google also refuses to provide the
required notices to employees stating that employees
are entitled to communicate even trade secrets to
outside attorneys. This is a violation of public policy,
the federal Defend Trade Secrets Act, and California
Business & Professions Code §§ 17200 et seq.
Defendants know or should know that their
confidentiality agreements and policies violate the law.
143. Accordingly, Defendants impose a term and
condition of employment on all Googlers that it knows
is prohibited by law in violation of Labor Code § 432.5.
144. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code
§ 432.5 “is one hundred dollars ($100) for each
aggrieved employee per period for the initial violation
and two hundred dollars ($200) for each aggrieved
employee per pay period for each subsequent violation.”
145. Plaintiffs seeks from Google and Alphabet
separately, on behalf of himself, the state of California,
and all aggrieved employees, PAGA penalties as set
forth above for each employee per pay period within the
statutory time frame.

App. 45
Fourth Cause of Action
PAGA (with reference to Labor Code § 432.5)
Illegal Prohibition on Whistleblowing –
Communications with the Government
(As to Google and Alphabet (collectively
Google))
146. As described above, Google requires
employees to agree in writing to confidentiality
agreements and policies that unlawfully prohibit
employees from disclosing to the government potential
violations of the law. Google also refuses to provide the
required notices to employees stating they are entitled
to communicate even trade secrets to the government.
This is a violation of public policy, Rule 21F-17 of the
Securities and Exchange Commission, the federal
Defend Trade Secrets Act, California Business &
Professions Code § 17200 et seq., and California Labor
Code § 1102.5. Google is aware that their
confidentiality agreements and policies violate the law.
147. Accordingly, Google impose a term and
condition of employment on all Googlers that they
know or should know is prohibited by law in violation
of Labor Code § 432.5.
148. Under the Private Attorney General Act, the
penalty for a violation of Labor Code § 432.5 “is one
hundred dollars ($100) for each aggrieved employee per
period for the initial violation and two hundred dollars
($200) for each aggrieved employee per pay period for
each subsequent violation.”

App. 46
149. Plaintiffs seek from Google and Alphabet
separately, on behalf of themselves, the State of
California, and all aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.
Fifth Cause of Action
PAGA (with reference to Labor Code
§ 1102.5(a))
Illegal Prohibition on Whistleblowing –
Communications with the Government
(As to Google and Alphabet (collectively
Google))
150. As described above, Google has adopted and
enforced agreements, policies and practices that
prohibit employees from disclosing potential violations
of the law to the government. These policies apply even
when a Googler has reasonable cause to believe that
the at-issue information discloses a violation of state or
federal statute, or a violation of or noncompliance with
a local, state, or federal rule or regulation. This is a
violation of California Labor Code § 1102.5.
151. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code
§ 1102.5 is both $10,000 per violation and “one hundred
dollars ($100) for each aggrieved employee per period
for the initial violation and two hundred dollars ($200)
for each aggrieved employee per pay period for each
subsequent violation.”

App. 47
152. Plaintiffs seeks from Google and Alphabet
separately, on behalf of themselves, the State of
California, and all aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.
Sixth Cause of Action
PAGA (with reference to Labor Code
§ 1102.5(a))
Illegal Prohibition on Whistleblowing –
Internal Communications
(As to Google and Alphabet (collectively
Google))
153. As described above, Google has adopted and
enforced policies and practices that prohibit employees
from disclosing potential violations of the law within
Google. These policies apply even when a Googler has
reasonable cause to believe that the at-issue
information discloses a violation of state or federal
statute, or a violation of or noncompliance with a local,
state, or federal rule or regulation. Specifically,
Googlers are instructed to not communicate with their
managers and others about misconduct that may
violate the law. Such communications must instead be
deleted or never made. This is a violation of California
Labor Code § 1102.5.
154. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code
§ 1102.5 is both $10,000 per violation and “one hundred
dollars ($100) for each aggrieved employee per period
for the initial violation and two hundred dollars ($200)

App. 48
for each aggrieved employee per pay period for each
subsequent violation.”
155. Plaintiffs seek from Google and Alphabet
separately, on behalf of themselves, the state of
California, and all aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.
Seventh Cause of Action
PAGA (with reference to Labor Code § 232.5)
Illegal Prohibition on Whistleblowing about
Working Conditions
(As to Google and Alphabet (collectively
Google))
156. As described above, Google requires
employees, as a condition of employment, to refrain
from disclosing information about Google’s working
conditions. This includes disclosure or whistleblowing
concerning potentially illegal working conditions, such
as unsafe or discriminatory employment practices. This
is a violation of California Labor Code §§ 232.5(a) and
(b).
157. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code
§ 232.5 is “one hundred dollars ($100) for each
aggrieved employee per period for the initial violation
and two hundred dollars ($200) for each aggrieved
employee per pay period for each subsequent violation.”
158. Plaintiffs seeks from Google and Alphabet
separately, on behalf of themselves, the State of

App. 49
California, and all aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.
Eighth Cause of Action
PAGA (with reference to Labor Code § 232.5)
Illegal Prohibition on Disclosure of Working
Conditions in General
(As to Google and Alphabet (collectively
Google))
159. As described above, Google requires
employees, as a condition of employment, to refrain
from disclosing information about Google’s and/or
Adecco’s working conditions. This is a violation of
California Labor Code §§ 232.5(a) and (b).
160. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code
§ 232.5 is “one hundred dollars ($100) for each
aggrieved employee per period for the initial violation
and two hundred dollars ($200) for each aggrieved
employee per pay period for each subsequent violation.”
161. Plaintiffs seek from Google and Alphabet
separately, on behalf of themselves, the State of
California, and all of the aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.

App. 50
Ninth Cause of Action
PAGA (with reference to Labor Code § 232)
Illegal Prohibition on Whistleblowing about
Wages
(As to Google and Alphabet (collectively
Google))
162. As described above, Google requires
employees, as a condition of employment, to refrain
from disclosing information about the amount of his or
her wages. This includes whistleblowing, or the
disclosure of information about Google’s failure to pay
appropriate amounts of overtime and other wages in
accordance with the law. This is a violation of
California Labor Code §§ 232(a) and (b).
163. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code § 232
is “one hundred dollars ($100) for each aggrieved
employee per period for the initial violation and two
hundred dollars ($200) for each aggrieved employee per
pay period for each subsequent violation.”
164. Plaintiffs seeks from Google and Alphabet
separately, on behalf of themselves, the State of
California, and all of the aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.

App. 51
Tenth Cause of Action
PAGA (with reference to Labor Code § 232)
Illegal Prohibition on the Disclosure of Wages
in General
(As to Google and Alphabet (collectively
Google))
165. As described above, Google requires
employees, as a condition of employment, to refrain
from disclosing information about the amount of his or
her wages in general. This is a violation of California
Labor Code §§ 232(a) and (b).
166. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code § 232
is “one hundred dollars ($100) for each aggrieved
employee per period for the initial violation and two
hundred dollars ($200) for each aggrieved employee per
pay period for each subsequent violation.”
167. Plaintiffs seek from Google and Alphabet,
separately, on behalf of themselves, the State of
California, and all of the aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.

App. 52
Eleventh Cause of Action
PAGA (with reference to Labor Code
§ 1197.5(j)/(k))
Illegal Prohibition on Whistleblowing about
Wages
(As to Googly and Alphabet (collectively
Google))
168. As described above, Google prohibits
employees from disclosing, their own wages, discussing
the wages of others, or inquiring about another
employee’s wages. This includes whistleblowing or the
disclosure of information about Google’s failure to pay
appropriate amounts of overtime, and other wages in
accordance with the law. It also includes information
about gender or other disparities in pay. This is a
violation of California Labor Code § 1197.5(j)/(k).
169. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code
§ 1197.5 is “one hundred dollars ($100) for each
aggrieved employee per period for the initial violation
and two hundred dollars ($200) for each aggrieved
employee per pay period for each subsequent violation.”
170. Plaintiffs seek from Google and Alphabet
separately, on behalf of themselves, the State of
California, and all of Google’s aggrieved employees,
PAGA penalties as set forth above for each employee
per pay period within the statutory time frame.

App. 53
Twelfth Cause of Action
PAGA (with reference to Labor Code
§ 1197.5(j)/(k))
Illegal Prohibition on Discussion of Wages in
General
(As to Google and Alphabet (collectively
Google))
171. As described above, Google prohibits
employees from disclosing their own wages, discussing
the wages of others, or inquiring about another
employee’s wages in general. This is a violation of
California Labor Code § 1197.5(j)/(k).
172. Under the Private Attorneys General Act, the
penalty for a violation of Labor Code § 1197.5 is “one
hundred dollars ($100) for each aggrieved employee per
period for the initial violation and two hundred dollars
($200) for each aggrieved employee per pay period for
each subsequent violation.”
173. Plaintiff seek from Google and Alphabet
separately, on behalf of themselves, the state of
California, and all aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.

App. 54
Thirteenth Cause of Action
PAGA (with reference to Labor Code § 98.6)
Illegal Threats of Discharge for Engaging in
Lawful Conduct during Non-Work Hours
(As to Google and Alphabet (collectively
Google))
174. As described above, Google threatens to
discharge employees for engaging in lawful conduct
during non-work hours. This lawful conduct includes
the exercise of constitutional rights such as freedom of
speech, freedom to speak the press, and economic
liberty under both the California and federal
constitutions.
175. Labor Code § 98.6 provides for a civil penalty
under PAGA of $10,000 per employee to be paid
directly to the employee for these violations.
176. In addition to the PAGA penalty described
above, under the Private Attorneys General Act, an
additional civil penalty for a violation of Labor Code
§ 98.6 is “one hundred dollars ($100) for each aggrieved
employee per period for the initial violation and two
hundred dollars ($200) for each aggrieved employee per
pay period for each subsequent violation.”
177. Plaintiffs seek from Google and Alphabet
separately, on behalf of themselves, the state of
California, and all of Google’s aggrieved employees,
PAGA penalties as set forth above for each employee
per pay period within the statutory time frame.

App. 55
Fourteenth Cause of Action
PAGA (with reference to Labor Code § 96(k))
Illegal Prohibition on Engaging in Lawful
Conduct during Non-Work Hours
178. As described above, Google prohibits
employees from engaging in lawful conduct during
non-work hours. This lawful conduct includes the
exercise of constitutional rights such as freedom of
speech, freedom to speak the press, and economic
liberty under both the California and federal
constitutions. The lawful conduct also includes
engaging in conduct protected by the Labor Code with
respect to disclosing information about wages and
working conditions and illegal conduct.
179. Under the Private Attorneys General Act, the
penalty for a violation of Labor Code § 96(k) is “one
hundred dollars ($100) for each aggrieved employee per
period for the initial violation and two hundred dollars
($200) for each aggrieved employee per pay period for
each subsequent violation.”
180. Plaintiffs seek from Google and Alphabet
separately, on behalf of themselves, the state of
California, and all aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.

App. 56
Fifteenth Cause of Action
PAGA (with reference to Labor Code § 232.5)
(Regarding Working Conditions Set Forth in
Policies)
(As to Google and Alphabet (collectively
Google))
181. As described above, Google prohibits
disclosing information about their working conditions
by declaring its workplace policies “confidential” and
“for internal use only.” Indeed, and notwithstanding its
inadequate cure efforts, Google even declares its
Harassment Release “confidential.” This is a violation
of Labor Code §§ 232.5(a) and (b).
182. Under the Private Attorneys General Act, the
penalty for a violation of Labor Code § 96(k) is “one
hundred dollars ($100) for each aggrieved employee per
period for the initial violation and two hundred dollars
($200) for each aggrieved employee per pay period for
each subsequent violation.”
183. Plaintiffs seeks from Google and Alphabet,
separately, on behalf of themselves, the state of
California, and all of the aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.

App. 57
CAUSES OF ACTION
AS TO ADECCO
Sixteenth Cause of Action
PAGA (Incorporation of Claims against Google)
184. As described above, Adecco requires its
employees to abide by the policies and practices of its
clients, including Google. Adecco is thus equally liable
under PAGA with respect to Adecco aggrieved
employees working at Google as to the application of
Google policies and practices to them. Accordingly,
Plaintiff Correa also incorporates and alleges that
Adecco is liable under PAGA for causes of action five
through fifteen as applied to Google contingent workers
currently or formerly employed by Adecco.
185. Plaintiff Correa thus seeks from Adecco, on
behalf of herself, the state of California, and all of the
aggrieved employees, PAGA penalties as set forth
above for each Adecco employee also currently or
formerly employed by Google, per pay period, within
the statutory time frame.
Seventeenth Cause of Action
PAGA with reference to Labor Code §§ 96(k)
and 98.6)
(As To Adecco)
186. As described above, Adecco – through its
confidentiality agreements and policies – prohibits
aggrieved employees throughout California, including
Correa, from exercising their state and federal

App. 58
constitutional right to free speech during non-work
hours and off the employer’s premises. Adecco prohibits
aggrieved employees from, among other things:
a. Stating for whom they work on social
media such as LinkedIn.
client.

b. Commenting on Adecco or any Adecco

c. Discussing disagreements with others or
even the names of their co-workers.
d. Talking with friends about their workday.
e. Reporting suspected violations of the law
to the government or to an attorney, including
whistleblowing about securities law violations or false
claims act violations.
d. Talking to the press about Adecco or any
Adecco client.
e. Approaching an Adecco client for a
full-time job.
f. Asking an Adecco client why their work
assignment ended.
187. None of the above examples evidences
conduct that is arguably protected or prohibited by the
National Labor Relations Act.
188. Plaintiff disputes that the Court’s “crucial
element” test for Garmon preemption is the correct
one. Nevertheless, the Court can resolve whether
Adecco’s agreements and policies have the impact
referenced above (whether in whole or in part), and

App. 59
thus violate Labor Code §§ 96(k) and 98.6, without
deciding a “crucial element” of a claim arguably within
the jurisdiction of the NLRB: I.e., whether the
agreements or policies restrict current employees in
the exercise of their § 7 rights under the National
Labor Relations Act.
189. Plaintiff Correa thus seeks from Adecco, on
behalf of herself, the state of California, and all of the
aggrieved employees, PAGA penalties for each
employee currently or formerly employed by Adecco in
California, per pay period, within the statutory time
frame.
Eighteenth Cause of Action
PAGA with reference to Labor Code §§ 232 and
1197.5(j)/(k))
(As To Adecco)
190. As described above, Adecco prohibits
aggrieved employees, including Correa, throughout
California from disclosing information about their own
wages or the wages of others. Among other things,
Adecco’s confidentiality agreements and policies
prohibit current and former employees from:
a. Disclosing wage information for the
purpose of seeking new work or negotiating a higher
salary on an individual basis both during and following
employment.
c. Disclosing wage information postemployment for the purpose of recruiting employees
from their former employer.

App. 60
b. Disclosing wage information for the
purpose of whistleblowing to an attorney or to the
government about illegal wage and hour practices.
d. Disclosing wage information for other
reasons having nothing to do with the National Labor
Relations Act, including (but not limited to) assuring
worried parents that they can afford to pay the rent.
191. None of the above examples evidences
conduct that is arguably protected or prohibited by the
National Labor Relations Act.
192. Plaintiff disputes that the Court’s “crucial
element” test for Garmon preemption is the correct
one. Nevertheless, the Court can resolve whether
Adecco’s agreements and policies have the impact
referenced above (whether in whole or in part), and
thus violate Labor Code § 232.5, without deciding a
“crucial element- of a claim arguably within the
jurisdiction of the NLRB: I.e., whether the agreements
or policies restrict current employees in the exercise of
their § 7 rights under the National Labor Relations
Act.
193. Plaintiff Correa thus seeks from Adecco, on
behalf of herself, the state of California, and all of the
aggrieved employees, PAGA penalties for each
employee currently or formerly employed by Adecco in
California, per pay period, within the statutory time
frame.

App. 61
Nineteenth Cause of Action
PAGA (with reference to Labor Code §§ 232.5)
(As To Adecco)
194. As described above, Adecco prohibits
aggrieved employees, including Correa, throughout
California from disclosing information about their
working conditions to anyone. Among other things,
Adeeco’s confidentiality agreements and policies
prohibit current and former employees from, among
other things:
a. Disclosing information about working
conditions for the purpose of seeking different
employment (e.g., to explain an employee’s reason for
seeking a new job, or to discuss one’s accomplishments
on a LinkedIn resume).
b. Disclosing information about working
conditions post-employment for the purpose of
competing against Adecco or its clients for employees
by comparing or contrasting working conditions at
competing firms.
c. Disclosing working conditions for the
purpose of whistleblowing to an attorney or to the
government about illegal employment practices.
d. Disclosing working conditions for other
reasons having nothing to do with the National Labor
Relations Act, including (but not limited to)
commiserating with a friend about the long hours one
is required to work.

App. 62
195. None of the above examples evidences
conduct that is arguably protected or prohibited by the
National Labor Relations Act.
196. Plaintiff disputes that the Court’s “crucial
element” test for Garmon preemption is the correct
one. Nevertheless, the Court can resolve whether
Adecco’s agreements and policies have the impact
referenced above, and thus violate Labor Code §§ 232.5,
without deciding a “crucial element” of a claim
arguably within the jurisdiction of the NLRB: I.e.,
whether the agreements or policies restrict current
employees in the exercise of their § 7 rights under the
National Labor Relations Act.
197. Plaintiff Correa thus seeks from Adecco, on
behalf of herself, the state of California, and all of the
aggrieved employees, PAGA penalties for each Adecco
employee also currently or formerly employed by
Adecco, per pay period, within the statutory time
frame.
Twentieth Cause of Action
PAGA with reference to Labor Code
§§ 1102.5(a))
(As To Adecco)
198. As described above, Adecco prohibits
aggrieved employees, including Correa, throughout
California from reporting reasonably suspected
violations of the law to the government or to an
attorney. Among other things, Adecco’s confidentiality
agreements and policies prohibit current and former
employees from, among other things:

App. 63
a. Reporting securities law violations.
b. Reporting false claims act violations.
c. Reporting violations of the Foreign
Corrupt Practices Act.
d. Reporting violations of other state and
federal laws completely unrelated to the terms and
conditions of an employee’s employment.
e. Reporting violations of state and federal
laws relating to an employee’s individual concerns
about compliance with employment laws.
199. None of the above examples evidences
conduct that is arguably protected or prohibited by the
National Labor Relations Act.
200. Plaintiff disputes that the Court’s “crucial
element” test for Garmon preemption is the correct
one. Nevertheless, the Court can resolve whether
Adecco’s agreements and policies have the impact
referenced above (whether in whole or in part), and
thus violate Labor Code § 1102.5(a) without deciding a
“crucial element” of a claim arguably within the
jurisdiction of the NLRB: I.e., whether the agreements
or policies restrict current employees in the exercise of
their § 7 rights under the National Labor Relations
Act.
201. Plaintiff Correa thus seeks from Adecco, on
behalf of herself, the state of California, and all of the
aggrieved employees, PAGA penalties for each
employee currently or formerly employed by Adecco in

App. 64
California, per pay period, within the statutory time
frame.
Twenty-First Cause of Action
PAGA (with reference to Labor Code § 432.5)
(As To Adecco)
202. As described above, Adecco requires
aggrieved employees to agree in writing to terms and
conditions that it knows is prohibited by law. Adecco
requires its employees to agree to a confidentiality
agreement and other writings that, among other
things.
a. Fails to include the notice required by the
Defend Trade Secrets Act.
b. Prohibits employees from reporting
securities law violations, in violation of SEC Rule
21F-17.
c. Prohibits employees from reporting
suspected violations of the law, in violation of Labor
Code § 1102.5, public policy, and numerous other
whistleblower laws. Prohibits employees seeking
employment with an Adecco client without Adecco’s
consent.
d. Prohibits employees from seeking full time
work with an Adecco client.
e. Prohibits employees from asking an Adecco
client why their assignment ended.
f. Prohibits employees from ever using the
general skills, knowledge, acquaintances, and the

App. 65
overall experience they obtain at Adecco and its clients
in practicing their trade.
f. Prohibits employees from ever using
customer and other information learned at Adecco or
its clients in practicing their trade even when that
information is readily available to competitors through
normal competitive means.
g. Prohibits employees from disclosing
information about their own or other employees’ wages
for any reason (including in furtherance of practicing
their trade).
h. Prohibits employees from disclosing
information about Adecco and their clients’ working
conditions for any reason (including in furtherance of
practicing their trade).
i. Prohibits employees from identifying their
joint employer (i.e., Adecco’s clients) on their LinkedIn
profile and other social media.
j. Prohibits employees from engaging in
lawful conduct during non-work hours in violation of
Labor Code § 96(k) and 98.6 by, for example, “blogging”
about Adecco or its clients.
203. Through this conduct (among other things),
Adecco knowingly requires employees to sign a writing
that violates numerous laws, including the Cartwright
Act, Business & Professions Code § 16600, the Defend
Trades Secrets Act, the rules of the Securities and
Exchange Commission, the California Constitution’s
liberty of speech clause, the Labor Code sections

App. 66
referenced above, and Business and Professions Code
§ 17200 et seq.
204. None of the above examples evidences
conduct that is arguably protected or prohibited by the
National Labor Relations Act.
205. Plaintiff disputes that the Court’s “crucial
element” test for Garmon preemption is the correct
one. Nevertheless, the Court can resolve whether
Adecco’s writings have the impact referenced above
(whether in whole or in part), and thus violate Labor
Code § 432.5 without deciding a “crucial element” of a
claim arguably within the jurisdiction of the NLRB:
I.e., whether the agreements or policies restrict current
employees in the exercise of their § 7 rights under the
National Labor Relations Act.
206. Plaintiff Correa thus seeks from Adecco, on
behalf of herself, the state of California, and all of the
aggrieved employees, PAGA penalties for each
employee also currently or formerly employed by
Adecco in California, per pay period, within the
statutory time frame.
Twenty-Second Cause of Action
Unfair Competition – Business & Professions
Code § 17200
(As To Adecco)
207. As described above, Adecco’s agreements,
policies, and practices with respect to its
California-based temporary employees violate
numerous laws and constitute unfair and unlawful

App. 67
business practices in violation of California Business &
Professions Code § 17200 et seq.
208. Plaintiff Correa remains subject to Adecco’s
unlawful agreements.
209. Plaintiff Correa seeks a public injunction
against Adecco prohibiting it from enforcing its
confidentiality agreement and other writings to the
extent they are unlawful.
210. Plaintiff Correa further seeks an affirmative
public injunction in which Adecco is required to inform
all its former and current employees that it will not
enforce its confidentiality agreements or other writings
and that these former and current employees are
permitted to (among other things):
a. Work for an Adecco client without seeking
Adecco’s permission.
b. Approach an Adecco client about full time
work without notifying Adecco.
c. Ask an
assignment ended.

Adecco

client

why

their

d. Use and disclose the general skills,
knowledge, acquaintances, and the overall experience
they obtain at Adecco and its clients in working for
other employers or themselves.
e. Use and disclose the customer and other
information learned at Adecco or its clients in
practicing their trade when that information is readily
available to competitors through normal competitive
means.

App. 68
f. Discuss Adecco and its clients during
non-work hours and away from their employer’s
premises, except when such discussions would reveal
trade secrets.
g. Identify Adecco clients in their social
media profiles.
h. Use and disclose information about
working conditions and wages.
i. Disclose trade secrets in accordance with
the Defend Trade Secrets Act.
j. Report suspected violations of the law,
including securities law violations.
k. Engage in other conduct protected by
California law.
211. None of the above examples evidences
conduct that is arguably protected or prohibited by the
National Labor Relations Act.
212. Plaintiff disputes that the Court’s “crucial
element” test for Garmon preemption is the correct
one. Nevertheless, the Court can resolve all or part
Plaintiff Correa’s unfair competition claim without
deciding a “crucial element” of a claim arguably within
the jurisdiction of the NLRB: I.e., whether the
agreements or policies restrict current employees in
the exercise of their § 7 rights under the National
Labor Relations Act.

App. 69
CAUSES OF ACTION
AS TO ALL DEFENDANTS
Twenty-Third Cause of Action
PAGA (with reference to Labor Code § 432.5)
(Illegal Releases)
(As to all Defendants)
213. California law prohibits agreements
requiring employees to release potential claims as a
condition of employment. For example:
a. California Civil Code § 1668 states all
contracts which exempt a person from responsibility for
willfully injuring another violate the law.
b. California Civil Code § 3513 states that a
law established for a public reason cannot be
contravened by private agreement.
c. California Labor Code § 5000 states that
no contract, rule, or regulation can exempt an employer
from liability under California’s workers compensation
laws.
214. As described above, Defendants require
employees to release non-waivable rights as a condition
of working for Defendants, including their rights under
Title VII, FEHA, and California’s workers
compensation laws. Defendants know or should know
that these releases violate the law, yet they require
them anyway.

App. 70
215. Accordingly, Defendants impose a term and
condition of employment on all employees that they
know or should know is prohibited by law in violation
of Labor Code § 432.5.
216. Under the Private Attorneys General Act
(PAGA), the penalty for a violation of Labor Code
§ 432.5 “is one hundred dollars ($100) for each
aggrieved employee per period for the initial violation
and two hundred dollars ($200) for each aggrieved
employee per pay period for each subsequent violation.”
217. Plaintiffs seek from each Defendant
separately, on behalf of themselves, the State of
California, and all aggrieved employees, PAGA
penalties as set forth above for each employee per pay
period within the statutory time frame.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs pray for judgment against
Defendants as follows:
1.
Full and complete civil penalties for each
separate violation of PAGA in accordance with the
Private Attorneys General Act.
2.
Attorneys’ fees and costs under PAGA, CCP
§ 1021.5, or any other applicable law or doctrine.
3.

Interest on penalties.

4.

A public injunction.

5.
just.

All other relief the Court deems proper and

App. 71
Dated: November 21, 2017
BAKER CURTIS & SCHWARTZ P.C.
By: /s/

Chris Baker
Attorneys for Plaintiffs
JOHN DOE, DAVID GUDEMAN
AND PAOLA CORREA

JURY TRIAL DEMANDED
Plaintiffs hereby demand a trial by jury.
Dated: November 21, 2017
BAKER CURTIS & SCHWARTZ P.C.
By: /s/

Chris Baker
Attorneys for Plaintiffs
JOHN DOE, DAVID GUDEMAN
AND PAOLA CORREA

[*** Attachments not included ***]

App. 72

APPENDIX 2
U.S. Const. Amend. XIV, § 1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
18 U.S. Code § 1833 - Exceptions to prohibitions
(a) In General.—This chapter does not prohibit or
create a private right of action for—
(1) any otherwise lawful activity conducted by a
governmental entity of the United States, a State,
or a political subdivision of a State; or
(2) the disclosure of a trade secret in accordance
with subsection (b).
(b) Immunity From Liability for Confidential
Disclosure of a Trade Secret to the Government or in a
Court Filing.—
(1) Immunity.—An individual shall not be held
criminally or civilly liable under any Federal or
State trade secret law for the disclosure of a trade
secret that—

App. 73
(A) is made—
(i) in confidence to a Federal, State, or local
government official, either directly or
indirectly, or to an attorney; and
(ii) solely for the purpose of reporting or
investigating a suspected violation of law; or
(B) is made in a complaint or other document
filed in a lawsuit or other proceeding, if such
filing is made under seal.
(2) Use of trade secret information in
anti-retaliation lawsuit.—An individual who files a
lawsuit for retaliation by an employer for reporting
a suspected violation of law may disclose the trade
secret to the attorney of the individual and use the
trade secret information in the court proceeding, if
the individual—
(A) files any document containing the trade
secret under seal; and
(B) does not disclose the trade secret, except
pursuant to court order.
(3) Notice.—
(A) In general.—
An employer shall provide notice of the
immunity set forth in this subsection in any
contract or agreement with an employee that
governs the use of a trade secret or other
confidential information.

App. 74
(B) Policy document.—
An employer shall be considered to be in
compliance with the notice requirement in
subparagraph (A) if the employer provides a
cross-reference to a policy document provided to
the employee that sets forth the employer’s
reporting policy for a suspected violation of law.
(C) Non-compliance.—
If an employer does not comply with the notice
requirement in subparagraph (A), the employer
may not be awarded exemplary damages or
attorney fees under subparagraph (C) or (D) of
section 1836(b)(3) in an action against an
employee to whom notice was not provided.
(D) Applicability.—
This paragraph shall apply to contracts and
agreements that are entered into or updated
after the date of enactment of this subsection.
(4) Employee defined.—
For purposes of this subsection, the term
“employee” includes any individual performing
work as a contractor or consultant for an employer.
(5) Rule of construction.—
Except as expressly provided for under this
subsection, nothing in this subsection shall be
construed to authorize, or limit liability for, an act
that is otherwise prohibited by law, such as the
unlawful access of material by unauthorized means.

App. 75
17 CFR § 240.21F-17 - Staff communications
with individuals reporting possible securities
law violations.
§ 240.21F-17 Staff communications with individuals
reporting possible securities law violations.
(a) No person may take any action to impede an
individual from communicating directly with the
Commission staff about a possible securities law
violation, including enforcing, or threatening to
enforce, a confidentiality agreement (other than
agreements dealing with information covered by §
240.21F-4(b)(4)(i) and § 240.21F-4(b)(4)(ii) of this
chapter related to the legal representation of a client)
with respect to such communications.
(b) If you are a director, officer, member, agent, or
employee of an entity that has counsel, and you have
initiated communication with the Commission relating
to a possible securities law violation, the staff is
authorized to communicate directly with you regarding
the possible securities law violation without seeking
the consent of the entity's counsel.

App. 76
Cal. Bus. & Prof. Code §§ 16720-16728
Section 16720 - Trust
A trust is a combination of capital, skill or acts by two
or more persons for any of the following purposes:
(a) To create or carry out restrictions in trade or
commerce.
(b) To limit or reduce the production, or increase the
price of merchandise or of any commodity.
(c) To prevent competition in manufacturing, making,
transportation, sale or purchase of merchandise,
produce or any commodity.
(d) To fix at any standard or figure, whereby its price
to the public or consumer shall be in any manner
controlled or established, any article or commodity of
merchandise, produce or commerce intended for sale,
barter, use or consumption in this State.
(e) To make or enter into or execute or carry out any
contracts, obligations or agreements of any kind or
description, by which they do all or any or any
combination of the following:
(1) Bind themselves not to sell, dispose of or
transport any article or any commodity or any
article of trade, use, merchandise, commerce or
consumption below a common standard figure, or
fixed value.
(2) Agree in any manner to keep the price of such
article, commodity or transportation at a fixed or
graduated figure.

App. 77
(3) Establish or settle the price of any article,
commodity or transportation between them or
themselves and others, so as directly or indirectly to
preclude a free and unrestricted competition among
themselves, or any purchasers or consumers in the
sale or transportation of any such article or
commodity.
(4) Agree to pool, combine or directly or indirectly
unite any interests that they may have connected
with the sale or transportation of any such article
or commodity, that its price might in any manner
be affected.
Section 16721 - Protection of person's right to
enter or pursue business and to freely exercise
and enjoy religion
Recognizing that the California Constitution prohibits
a person from being disqualified from entering or
pursuing a business, profession, vocation, or
employment because of sex, race, creed, color, or
national or ethnic origin, and guarantees the free
exercise and enjoyment of religion without
discrimination or preference; and recognizing that
these and other basic, fundamental constitutional
principles are directly affected and denigrated by
certain ongoing practices in the business and
commercial world, it is necessary that provisions
protecting and enhancing a person's right to enter or
pursue business and to freely exercise and enjoy
religion, consistent with law, be established.
(a) No person within the jurisdiction of this state shall
be excluded from a business transaction on the basis of

App. 78
a policy expressed in any document or writing and
imposed by a third party where that policy requires
discrimination against that person on the basis of any
characteristic listed or defined in subdivision (b) or (e)
of Section 51 of the Civil Code or on the basis that the
person conducts or has conducted business in a
particular location.
(b) No person within the jurisdiction of this state shall
require another person to be excluded, or be required
to exclude another person, from a business transaction
on the basis of a policy expressed in any document or
writing that requires discrimination against that other
person on the basis of any characteristic listed or
defined in subdivision (b) or (e) of Section 51 of the
Civil Code or on the basis that the person conducts or
has conducted business in a particular location.
(c) Any violation of any provision of this section is a
conspiracy against trade.
(d) Nothing in this section shall be construed to
prohibit any person, on this basis of his or her
individual ideology or preferences, from doing business
or refusing to do business with any other person
consistent with law.
Section 16721.5 - Unlawful trust and unlawful
restraint of trade
(a) It is an unlawful trust and an unlawful restraint of
trade for a person to do the following:
(1) Grant or accept a letter of credit, or other
document that evidences the transfer of funds or
credit, or enter into a contract for the exchange of

App. 79
goods or services, if the letter of credit, contract, or
other document contains a provision that requires
a person to discriminate against, or to certify that
he, she, or it has not dealt with, another person on
the basis of any characteristic listed or defined in
subdivision (b) or (e) of Section 51 of the Civil Code,
or on the basis of a person's lawful business
associations.
(2) To refuse to grant or accept a letter of credit, or
other document that evidences the transfer of funds
or credit, or to refuse to enter into a contract for the
exchange of goods or services, on the ground that
the letter, contract, or document does not contain a
discriminatory provision or certification.
(b) This section shall not apply to a letter of credit,
contract, or other document that contains a provision
pertaining to a labor dispute or an unfair labor practice
if the other provisions of that letter of credit, contract,
or other document otherwise do not violate this section.
(c) For purposes of this section, the prohibition against
discrimination on the basis of a person's business
associations does not include the requiring of
association with particular employment or a particular
group as a prerequisite to obtaining group rates or
discounts on insurance, recreational activities, or other
similar benefits.
(d) For purposes of this section, "person" shall include,
but not be limited to, individuals, firms, partnerships,
associations, corporations, and governmental agencies.

App. 80
Section 16721.6 - Legislative intent
It is the intent of the Legislature that Sections 16721
and 16721.5 be interpreted and applied so as not to
conflict with federal law with respect to transactions in
the interstate or foreign commerce of the United States
to the extent, if any, not preempted by the Export
Administration Act of 1969 as amended (50 U.S.C.App.
Sec. 2401 and following) and any regulations
promulgated thereunder.
Section 16722 - Void contract
Any contract or agreement in violation of this chapter
is absolutely void and is not enforceable at law or in
equity.
Section 16725 - Not unlawful to promote
competition
It is not unlawful to enter into agreements or form
associations or combinations, the purpose and effect of
which is to promote, encourage or increase competition
in any trade or industry, or which are in furtherance of
trade.
Section 16726 - Every trust void
Except as provided in this chapter, every trust is
unlawful, against public policy and void.
Section 16727 - Unlawful condition that lessee
or purchaser not use goods or services of
competitor
It shall be unlawful for any person to lease or make a
sale or contract for the sale of goods, merchandise,

App. 81
machinery, supplies, commodities for use within the
State, or to fix a price charged therefor, or discount
from, or rebate upon, such price, on the condition,
agreement or understanding that the lessee or
purchaser thereof shall not use or deal in the goods,
merchandise, machinery, supplies, commodities, or
services of a competitor or competitors of the lessor or
seller, where the effect of such lease, sale, or contract
for sale or such condition, agreement or understanding
may be to substantially lessen competition or tend to
create a monopoly in any line of trade or commerce in
any section of the State.
Section 16728 - Motor carriers of property
(a) Notwithstanding any other provision of law, motor
carriers of property, as defined in Section 34601 of the
Vehicle Code, may voluntarily elect to participate in
uniform cargo liability rules, uniform bills of lading or
receipts for property being transported, uniform cargo
credit rules, joint line rates or routes, classifications,
mileage guides, and pooling. Motor carriers of property
that so elect shall comply with all requirements of
Section 14501(c) of Title 49 of the United States Code
and with federal regulations promulgated pursuant to
that section. The Legislature intends by this section to
provide to motor carriers of property the antitrust
immunity authorized by state action pursuant to
Section 14501(c) of Title 49 of the United States Code.
(b) The election authorized by this section shall be
exercised in either of the following ways:
(1) Participation in an agreement pursuant to
Section 13703 of Title 49 of the United States Code.

App. 82
(2) Filing with the Department of Motor Vehicles a
notice of adoption of any or all of the uniform cargo
liability rules, uniform bills of lading or receipts for
property being transported, uniform cargo credit
rules, joint rates or routes, classifications, mileage
guides, and pooling contained in an identified
publication authorized by Section 13703 of Title 49
of the United States Code, along with a written
certification issued by the organization establishing
those uniform rules or provisions in accordance
with Section 13703(g)(1)(B) of Title 49 of the United
States Code, affirming participation of the motor
carrier of property in the collective publication. The
certification shall be made available for public
inspection.
(c) The elections made by a motor carrier of property
pursuant to this section may be canceled by the motor
carrier.

